*

Case: 20-1752

Document: 8-1

Page: 1

Date Filed: 10/07/2020

October 1, 2020
DLD-002
UNITED STATES COURT OF APPEALS FOR THE THIRD CIRCUIT
C.A. No. 20-1752
CHARLES HAMILTON, Appellant
VS.
ADMINISTRATOR EAST JERSEY STATE PRISON, ET AL.
(D.N.J. Civ. No. 3-16-cv-05705)
Present:

JORDAN, KRAUSE and PHIPPS, Circuit Judges
Submitted are:
(1)

Appellant’s request for a certificate of appealability under 28 U.S.C.
§ 2253(c)(1); and

(2)

Appellees’ Response

5

in the above-captioned case.
Respectfully,
Clerk
__ _____________________________ ORDER_______ U_________________ _
Appellant’s request for a certificate of appealability is denied. See 28 U.S.C.
§ 2253(c). Jurists of reason would not debate that the claims in Appellant’s habeas
petition were either procedurally barred or mentless. for essentially the reasons set foith
in the District Court’s opinion. See Slack v. McDaniel, 529 U.S. 473, 484 (2000);
Miller-El v. Cockrell 537 U.S. 322, 327 (2003).
A

By the Court,
s/ Kent A. Jordan
Circuit Judge
Dated: October 7, 2020
kr/cc: Charles Hamilton
Regina M. Oberholzer, Esq.

s

y

vAl...

/■

,

A True Copy: “'►.is.u’1

Patricia S. Dodszuweit, Clerk
Certified Order Issued in Lieu of Mandate

Case 3:16-cv-05705-PGS Document 42 Filed 03/03/20 Page 1 of 9 PagelD: 2508

UNITED STATES DISTRICT COURT
DISTRICT OF NEW JERSEY
CHARLES HAMILTON,
Petitioner,

Civ. No. 16-5705 (PGS)

v.
PATRICK NOGAN, et al.,

OPINION

Respondents.
PETER G. SHERIDAN. U.S.D.J.
I.

INTRODUCTION
Petitioner Charles Hamilton (“Petitioner” or “Hamilton”) is a state prisoner proceeding

with a petition for writ of habeas corpus pursuant to 28 U.S.C. § 2254. On September 1 7, 2019,
this Court denied the habeas petition.1 Presently pending before this Court is Hamilton s motion
to alter, amend or reconsider the denial of his habeas petition. (See ECF No. 39.) For the
following reasons, Hamilton’s motion will be denied.
II.

BACKGROUND
Hamilton was convicted by a jury in state court of various charges including conspiracy

to commit racketeering, racketeering, distribution of a controlled substance and weapons
offenses. Hamilton’s direct appeal and post-conviction relief petitions ultimately proved
unsuccessful.

The habeas petition was denied via a memorandum opinion on September 17, 2019. (See ECF
No. 37.) However, due to a clerical error, this Court failed to enter a separate order denying the
habeas petition that had been referenced in the memorandum opinion. That omission will be
corrected in the order that accompanies this opinion.
l

Case 3:16-cv-05705-PGS Document 42 Filed 03/03/20 Page 2 of 9 PagelD: 2509

In 2016, Hamilton filed this federal habeas petition pro se? (See ECF No. 1.) One of the
claims raised by Hamilton included an argument that the trial court had deprived him of his
constitutional right to counsel of his choice. This Court laid out the factual background giving
rise to this claim in its previous opinion as follows:
It appears that shortly after his arrest, Hamilton retained Maria
Noto as his defense counsel. (ECF No. 26-12, at 4-5.) At the time
Hamilton retained Ms. Noto as counsel, she was a solo
practitioner. (See id.) However, in January 2006, Edward
Washbume joined her firm as a partner and began assisting with
her caseload. (See ECF No. 34-38, at 3.) Ms. Noto thereafter was
out of the office for medical reasons. Upon her return to work, she
shared some of her cases with Mr. Washbume “because it was
impossible at that point to catch up with everything that had to be
done.” (Id.) Hamilton’s case was among the files with which Mr.
Washbume apparently assisted Ms. Noto. (Id.) Mr. Washbume
attended several court hearings on Hamilton’s case with Ms. Noto
and met with Hamilton to discuss his defense. (Id.) [FN 4]
[FN 4] Included in these hearings was an August 30, 2006 status
conference in which the trial court indicated that Mr. Washbume
would not be trying Petitioner’s case. (ECF No. 26-13, at 4 (“Mr.
Washbume, how long do you think your case will be? I know you
won’t be trying it....”).)
On the first day of jury selection, Hamilton alerted the trial court
that he was dissatisfied with his counsel, explaining:
I had discrepancies about my attorney for the
longest. She handled my case, didn’t investigate it
properly, and just throw him on it three months ago.
I don’t have nothing against saying he’s not a good
lawyer, but she just throws him on it three months
ago. I didn’t pay him. He wasn’t even in the firm
when I paid her my money. It’s a lot of things that
wasn’t done. She’s not interested in my case. She
only been down here like four times out of two
2 After Hamilton filed his habeas petition, Cynthia Hardaway, Esq. entered an appearance on his
behalf. (See ECF No. 10.) However, after Hamilton’s habeas petition was denied, both Hamilton
and Ms. Hardaway have indicated that she is no longer representing Hamilton in this action. (See
JECF Nos. 40 & 41.) Therefore, the Clerk will be ordered to remove Ms. Hardaway as Hamilton s
counsel of record and add Hamilton’s contact information as the person to be notified
considering his pro se status in this case moving forward.

Case 3:16-cv-05705-PGS Document 42 Filed 03/03/20 Page 3 of 9 PagelD: 2510

years. She only been down here personally like four
times. I couldn’t say anything because I sat in the
second row, and the only time I was spoken to was
when it was time for me to get another court date....
But I just want proper representation. This is my
life. These ain’t no small charge that I have.
(ECF No. 34-37, at 3.) The trial court questioned Hamilton’s
dissatisfaction with his legal representation as “every motion that
could have been filed was filed.” (Id.) Then, to the extent Hamilton
sought an adjournment of the pending trial date to obtain new
counsel, the trial court denied an adjournment because “it’s simply
not practical, and there is no reason to adjourn the case at this
point.” (Id. at 4.)
Nevertheless, a week later, Ms. Noto appeared before the trial
court to place on the record the history of her representation of
Hamilton. (ECF No. 34-38, at 2-3.) Ms. Noto stated that in April
2006, Ms. Noto told Hamilton she “would like to have Mr.
Washbume take over as his trial counsel and asked if he would
have an objection.” (Id. at 3.) According to Ms. Noto, Hamilton
did not object. (Id.) After April 2006, Mr. Washbume handled all
court appearances in this matter and continued to meet with
Hamilton in preparation for trial. (Id. at 3—4.) In response to Ms.
Noto’s explanation, Hamilton denied that he had not been
informed that Mr. Washbume would be taking over his
representation and thought that Mr. Washbume would only be
“assisting” Ms. Noto. (Id. at 4.)
The trial court denied Hamilton’s request to substitute his counsel
because it was “concem[ed] that [he was] looking for a way to
adjourn this trial.” (Id. at 6.) The trial court explained
Ms. Noto is an officer of the Court. She has an
obligation to advise the Court honestly of what has
transpired. I’m satisfied that you were aware and
agreed to Mr. Washbume taking over your
representation. If he were an attorney out of school
a year or two, that would be a difference situation,
but he obviously has about the same amount of
experience as Ms. Noto has.

So I have no reason to believe that Mr. Hamilton
will not have very professional and aggressive
3

Case 3:16-cv-05705-PGS Document 42 Filed 03/03/20 Page 4 of 9 PagelD: 2511

representation, and I accept your representations
that Mr. Hamilton was made aware of this, and that
you will be available to, based on your prior
involvement in the case on motions to the extent
that that’s relevant at all, to be able for consultation
with Mr. Washbume. He’s represented he is
prepared to go to trial, and he’s been involved in
this case since April for a period of five months, so
we’re going to proceed with Mr. Washbume
representing Mr. Hamilton, and I have every reason
to believe, Mr. Hamilton, that you will receive very
fine representation.
(Id)
Hamilton raised this claim on direct appeal, where it was denied by
the Appellate Division. The Appellate Division found that “the
trial court struck the proper balance” in weighing its right to
control its calendar and Hamilton’s constitutional right to choose
his own counsel. (ECF No. 34-6, at 8.) As such, the denial of
Hamilton’s request for an adjournment was not an abuse of the
trial court’s discretion nor did it cause Hamilton “a manifest wrong
or injury.” (Id.)
(ECF No. 37 at 10-12).
This Court then provided the relevant law and analyzed this claim as follows in the
September 17, 2019 memorandum opinion:
The Sixth Amendment of the Constitution guarantees criminal
defendants the right “to have the Assistance of Counsel for his
defence.” U.S. Const, amend. VI. The Supreme Court has
“recognized that the purpose of providing assistance of counsel is
simply to ensure that criminal defendants receive a fair trial’ and
that in evaluating Sixth Amendment claims, "the appropriate
inquiry focuses on the adversarial process, not on the accused s
relationship with his lawyer as such.” Wheat v. United States, 486
U.S. 153, 159 (1988) (citation omitted) (first quoting Strickland v.
Washington, 466 U.S. 668, 689 (1984); then quoting United States
v. Chronic, 466 U.S. 648, 657 n.21 (1984)). The Supreme Court
has further explained that “while the right to select and be
represented by one’s preferred attorney is comprehended by the
Sixth Amendment, the essential aim of the Amendment is to
guarantee an effective advocate for each criminal defendant rather
than to ensure that a defendant will inexorably be represented by
4

'

Case 3:16-cv-05705-PGS Document 42 Filed 03/03/20 Page 5 of 9 PagelD: 2512

the lawyer whom he prefers.” Id. However, the right to choose
one’s counsel is not “derived from the Sixth Amendment’s purpose
of ensuring a fair trial” and has instead “been regarded as the root
meaning of the constitutional guarantee.” United States v.
Gonzalez-Lopez, 548 U.S. 140, 147-18 (2006). Thus, an accused is
deprived of his right to choose his counsel where he “is
erroneously prevented from being represented by the lawyer he
wants, regardless of the quality of the representation he received.”
Id at 148. Such an erroneous deprivation of the right to choose
one’s counsel is a structural error. Id. at 150.
However, the right to choose one’s own counsel is not absolute and
“is circumscribed in several important respects,” including
requiring that an accused’s chosen counsel is a member of the bar,
consents to the representation, and the accused can afford to pay
his counsel. See Wheat, 486 U.S. at 159. Courts also have “wide
latitude in balancing the right to counsel of choice against the
needs of fairness and against the demands of its calendar.”
Gonzalez-Lopez, 548 U.S. at 152 (citation omitted). Indeed, “when
a criminal defendant first makes a trial court aware of
dissatisfaction with counsel on the eve of trial, it may not be a
denial of the right to counsel of choice for the trial court to deny a
continuance for the purposes of substituting or finding new
counsel.” Williams v. Hendricks, No. 00-4795, 2009 WL 2169230,
at *4 (D.N.J. July 21, 2009); see also Miller v. Blackletter, 525
F.3d 890, 894-98 (9th Cir. 2008) (denying habeas claim for
deprivation of a petitioner’s right to choose his own counsel where
the petitioner waited until the eve of trial to express dissatisfaction
with his attorney); United States v. Lyles, 223 F. App’x 499, 50203 (7th Cir. 2007) (finding that district court did not abuse its
discretion in denying a request for a continuance to seek new
counsel where the request was not made until the trial was
scheduled to begin). Nevertheless, “a trial court may not arbitrarily
deny a defendant’s right to counsel of choice” and “some sort of
fact finding or hearing” is required. United States v. Voigt, 89 F.3d
1050,1055-56 (3d Cir. 1996); see also Fuller v. Diesslin, 868 F.2d
604,609-12 (3d Cir. 1989).
The Appellate Division’s decision was neither contrary to this
established federal precedent nor an unreasonable application of
that precedent. A hearing was held to determine the veracity of
Hamilton’s claim that he was unaware Mr. Washbume would act
as his trial counsel. After hearing the statements of Hamilton and
Ms. Noto, the trial court found, on the record, that Hamilton was
aware that Mr. Washbume would represent him at trial as Ms.
Noto’s partner. Even if this Court were to credit Hamilton’s claim
5

Case 3:16-cv-05705-PGS Document 42 Filed 03/03/20 Page 6 of 9 PagelD: 2513

that he believed Ms. Noto would represent him at trial, he offers no
reason why he delayed presenting this issue to the trial court until
the first day of trial. Under these circumstances, the trial court s
decision was neither unreasonable or arbitrary where trial was set
to begin and Mr. Washbume was prepared to proceed. Accord
Miller, 525 F.3d at 898 (concluding denial of [Miller]’s motion to
substitute counsel was not “the type of unreasoning and arbitrary
insistence on expeditiousness that... federal law prohibits ). Based
on the Court’s review of the record, there is little support for
Hamilton’s contention that the trial court committed any
constitutional error in proceeding to trial with Mr. Washbume as
Hamilton’s counsel. Accordingly, Hamilton is not entitled to relief
on this claim.
(ECF No. 37 at 12-14.)
After

this Court issued its opinion denying Hamilton habeas relief on all of his claim,

Hamilton filed a

motion for reconsideration, (iSee ECF No. 39.) Hamilton states as follows in his

motion:
The crux of petitioner’s Denial of Counsel of Choice issue, is that
he was denied a trial date continuance so that he could continue
with his Counsel of Choice of two years Maria Noto, Esq. who was
conflicted between two clients and two trials; or in the alternative,
time to choose Substitute Counsel of Choice.
(ECF No. 39-1 at 4-5.) In support of his motion, Hamilton asserts the following discrepancies
from the Appellate Division opinion:
1

That Mr. Washbume appeared with him in court two or three times between January
2006 and April 2006.

2.

H,at Hamilton was aware as early as April 2006 that Washbume would be representing
him at trial.

3. That Noto and Washbume represented to the court that Hamilton agreed to have
Washbume act as his counsel.

Case 3:16-cv-05705-PGS Document 42 Filed 03/03/20 Page 7 of 9 PagelD: 2514

4. Hamilton did not inform the court that he did not want Noto or Washbume to represent
him on the eve of trial.
(ECF No. 39-1 at 11-14.) Accordingly, Hamilton requests this Court to reconsider its denial of
this habeas claim as well as the denial of a certificate of appealability on this claim.
LEGAL STANDARD

III.

Local Civil Rule 7.1 allows a party to seek a motion for re-argument or reconsideration of
“matter[s] or

controlling decisions which the party believes the Judge or Magistrate Judge has

overlooked. ” Local Civ. R. 7.1(i). Whether to grant a motion for reconsideration is a matter
within the Court’s
were

discretion, but it should only be granted where such facts or legal authority

indeed presented but overlooked. See BeLongv. RaymondInt7 Inc., 622 F.2d 1135, 1140

(3d Cir. 1980), overruled on other grounds by Croker v. Boeing Co. , 662 F.2d 975 (3d Cir.
1981); see also Williams v. Sullivan, 818 F. Supp. 92, 93 (D.N.J. 1993).
To prevail on a motion for reconsideration, the movant must show: “(1) an intervening
change in the controlling law; (2) the availability of new evidence that was not available when
the court..

. [rendered the judgment in question]; or (3) the need to correct a clear error of law or

fact or to prevent manifest injustice.” U.S. ex rel. Shumann v. Astrazeneca Pharm. L.P., 769 F.3d
837, 848-49 (3d Cir. 2014) (citing Max's Seafood Cafe ex rel. Lou-Ann, Inc. v. Quinteros, 176
p 3d 669, 677 (3d Cir. 1999)). The standard of review involved in a motion for reconsideration is
high and relief is to be granted sparingly. United States v. Jones, 158 F.R.D. 309, 314 (D.N.J.
1994).

“The Court will grant a motion for reconsideration only where its prior decision has

overlooked a factual or legal issue that may alter the disposition of the matter . The word
‘overlooked’ is the operative term in the Rule.” Andreyko v. Sunrise Sr. Living, Inc., 993 F.
Supp. 2d 475, 478 (D.N.J. 2014) (internal citations and quotation marks omitted) . Mere

7

Case 3:16-cv-05705-PGS Document 42 Filed 03/03/20 Page 8 of 9 PagelD: 2515

disagreement with the Court’s decision is not a basis for reconsideration. United States v.
Compaction Sys. Corp., 88 F. Supp. 2d 339, 345 (D.N.J. 1999).
IV.

DISCUSSION
This Court did not “overlook” issues associated with Hamilton’s counsel of choice claim

to the extent that they would change this Court’s denial of habeas relief on this claim. Indeed,
one of the key points in denying this claim, as this Court noted in its prior opinion, was that the
state court conducted a hearing to determine whether Hamilton had assented to Washburne being
his trial counsel. Noto made clear at this hearing that Hamilton assented to Washburne take over
as trial counsel in April, 2006. (See ECF No. 34-38 at 3.) Despite Hamilton contesting this, and
Washburne’s lack of direct knowledge of this conversation that Noto had with Hamilton, the
state court found Noto’s testimony to be convincing. (See id. at 6.) Subsequently on appeal, the
Appellate Division noted this fact as determined by the Superior Court and that Hamilton had
requested a continuance, but only on the eve of the trial. The Appellate Division’s opinion that
the trial court struck the proper balance in moving forward to trial with Washburne representing
Hamilton was not contrary to or an unreasonable application of clearly established federal law.
Furthermore, its decision was not based on an unreasonable determination of the facts for the
reasons stated above, namely that Noto stated on the record that Hamilton had assented to
Washburne representing him at trial. Given the difficult to meet AEDPA standard of review that
this Court was required to and did apply in reviewing Hamilton’s claim under 28 U.S.C. §
2254(d) in its prior opinion, along with high bar that petitioner has failed to meet to grant a
motion for reconsideration, Hamilton’s motion for reconsideration will be denied.

Case 3:16-cv-05705-PGS Document 42 Filed 03/03/20 Page 9 of 9 PagelD: 2516

V.

CONCLUSION
For the foregoing reasons, Hamilton’s motion for reconsideration is denied . An

appropriate order will be entered.

Ac. ViWxA,

DATED: February ,2020

PETER G. SHERIDAN
United States District Judge

9

\

Case 3:16-cv-05705-PGS Document 37 Filed 09/17/19 Page 1 of 33 PagelD: 2361
ft

UNITED STATES DISTRICT COURT
DISTRICT OF NEW JERSEY

CHARLES HAMILTON,
Civ. No. 16-5705 (PGS)
Petitioner,
MEMORANDUM AND ORDER

v.
PATRICK NOGAN, et al.,
Respondents.

PETER G. SHERIDAN. U.S.DJ.
I.

INTRODUCTION
Petitioner Charles Hamilton (“Petitioner” or “Hamilton”), a convicted criminal in the State

of New Jersey, has filed a Petition for a Writ of Habeas Corpus (the “Petition”), pursuant to 28
U.S.C. § 2254. (ECF Nos. 1, 9.) Having considered the parties’ submissions and the relevant
records of this case, the Petition will be denied and a certificate of appealability will not issue.
H.

BACKGROUND
On March 14, 2005, Hamilton was charged in a multi-count, multi-defendant indictment

with first-degree conspiracy to commit racketeering. The Counts are as follows:
Count One:

First-degree conspiracy to commit racketeering (N.J. Stat. Ann. §§ 2C:41-2(d),
2C:5-2)

Count Two:

First-degree racketeering (N.J. Stat. Ann. § 20.41-2;

Count Three: First-degree leader of a narcotics trafficking network (N.J. Stat Ann. § 2C:35-3)
Count Four. First-degree distribution of a controlled dangerous substance (N.J. Stat. Ann. §§
2C:35-5(a)(l), (b)(1), 202-6;
Count Six:

Third-degree distribution of a controlled dangerous substance on or within 1000
feet of school property (N.J. Stat. Ann. §§ 2035-7, 202-6;

Case 3:16-cv-05705-PGS Document 37 Filed 09/17/19 Page 2 of 33 PagelD: 2362

Count Eight: Second-degree possession with intent to distribute a controlled dangerous
substance (NJ. Stat. Ann. §§ 2C:35-5(a)(l), (b)(2), 2C:2-6)
Count Nine:

Third-degree possession with intent to distribute a controlled dangerous substance,
(NJ. Stat. Ann. §§ 2C:35-5(a)(l), (b)(3), 2C:2-6;

Counts Ten, Eleven, Twelve and Thirteen: Second-degree possession of weapons during the
commission of certain crimes (N.J. Stat. Ann. §§ 2C:35-5,2C:39-4.1(a), 2C:2-6)
Count Fourteen: Second-degree possession with intent to distribute a controlled dangerous
substance (N.J. Stat. Ann. § 2C:35-5(a)(l), (b)(2), 2C:2-6;
Counts Fifteen, Sixteen and Seventeen: Second-degree possession of weapons during the
commission of certain crimes (N.J. Stat. Ann. §§ 2C:35-5(a)(l), (b)(3), 2C:2-6;
Counts Twenty, Twenty-One, Twenty-Two, Twenty-Three, Twenty-Four, and Twenty-Five:
Fourth-degree unlawful purchase of a handgun (N.J. Stat. Ann. §§ 2C:58-3,2C:3910(a), 2C:2-6);
Counts Twenty-Seven and Twenty-Eight: Second-degree money laundering (N.J. Stat. Ann. §
2C: 21-25(a))
(ECFNo. 34-2.)
The Superior Court of New Jersey, Law Division described the facts underlying Hamilton’s
conviction, as adduced at a jury trial, as follows:
The investigation started in April of 2004 when [Investigator Brian
Kiely] received information from a confidential informant that Larry
Willis was selling heroin. A wiretap on Mr. Willis’s phone revealed
that his supplier was “Mark” who was later identified as Robert
Cashwell. A wiretap was placed on Mr. Cashwell’s phone to
determine who else he supplied heroin to and who supplied heroin
to him. Through the wiretap, the police discovered that Mr.
Cashwell supplied heroin to Akeem Blue, Coby Welch, Larry
Willis, and Jameel Alford. The individuals were identified through
surveillance. The police would intercept the calls, listen to the
individuals arrange meetings, and set up surveillance where the
meeting was to take place.
By setting up surveillances at meetings, investigators learned that
the petitioner was sometimes referred to as “Black.” On cross,
2

~

4

Case 3:16-cv-05705-PGS Document 37 Filed 09/17/19 Page 3 of 33 PagelD: 2363

^■SERSSSHSsillSIIlfil^

Investigator Kiely indicated that the petitioner never referred to
himself as Black, and no one called him Black directly: However,
people referred to him as Black when speaking about him.
Investigator Kiely further indicated that he identified the petitioner’s
voice and was able to determine that he was recorded during the
wiretap by making conversation with him after his arrest and by
asking “pedigree questions” during processing.
*
4 1?

On June 24, 2004, Mr. Cashwell and the defendant [Hamilton]
arranged to meet at 413 Dodd Street. Mr. Cashwell and Shameekah
Melvin went to 413 Dodd Street in a blue Infiniti. Mr. Cashwell
exited 413 Dodd Street carrying a black bag, which he put into the
trunk of the Infiniti.
Mr. Cashwell then met with Mr. Willis. He then met Mr. Blue at a
7-11 on Broad Street in Hamilton, where they were both arrested.
In the trunk of Mr. Cashwell’s car, police found heroin and $4,670
in cash. Over $40,OCX) was seized from Mr. Blue’s car.1
•&V

(ECF No. 34-14, at 94-96 (footnotes omitted).) Following the arrests at the Hamilton 7-Eleven,
law enforcement executed search warrants at several properties based on information received via
the wire taps. (Id at 96.) Notably, law enforcement executed a search warrant at two apartments
of 413 Dodd Street in West Orange, New Jersey where they found 50 bricks of heroin, $84,455 in
cash, and identification cards for Hamilton. (Id) Law enforcement also intercepted a call at 2:00
a,m. on June 25,2004 between Hamilton and Haseezah Harris, in which Hamilton “told Ms. Hams
the building was going to be raided” and instructed her to “put... them hammers in the bag and.
. . put dem outside ... the back door.” (Id at 97-98.) When law enforcement searched 12
Hawthorne Place in East Orange, “investigators located heroin and three loaded semi-automatic

l

Hamilton was not present at the 7-Eleven in Hamilton, New Jersey on June 25, 2004, but
was charged in the indictment and convicted by the jury as an accomplice to Cashwell and Melvin.
(See ECF No 34-2 at 15‘ ECF No 34-44 at JO 13
3

'

,

case 3:16-cv-05705-PGS Document 37 Filed 09/17/19 Page 4 of 33 PagelD: 2364

handguns in a bag underneath the backdoor steps.” (Id.)
Hamilton denied any involvement in the distribution of heroin and several of his
codefendants testified on his behalf. Cashwell testified that Hamilton “owns a construction
business” and “that he did not work for the petitioner in the construction business or in any illegal
enterprise.” (Id. at 99.) Cashwell also testified that Hamilton did not go by the alias “Black,” but
his brother Daron Hamilton, who was also a codefendant in this matter, did. (Id.) Nevertheless,
on cross-examination, Cashwell identified Hamilton’s voice on several recorded phone calls and
admitted that a call between him and Hamilton did discuss “a heroin customer and a brand of
heroin.” (Id. at 99-100.) That call arranged for the sale of heroin to Willis and Blue on June 24,
2004. (ECF No. 34-43, at 33-34.)
A jury convicted Hamilton of Counts One, Two, Four, Fifteen, Sixteen, Seventeen, and
Twenty-Seven. (ECF No. 34-3, at 1.) The jury was unable to reach a unanimous on the remaining
counts. (ECF No. 34-48, at 5-6.)
While the jury was deliberating, Hamilton fled the jurisdiction. (See ECF No. 34-45, at
23-24,27.) Hamilton was apprehended approximately one year later in Georgia and was returned
to New Jersey for sentencing. (ECF No. 34-52, at 4.) A sentencing hearing was held on February
21, 2008, at which time the trial court granted the State’s motion for extended term sentencing.
(ECF No. 34-3, at 3.) Hamilton was ultimately sentenced to life in prison with a twenty-five-year
period of parole ineligibility on Count Four; a consecutive term of fifteen years with a five-year
period of parole ineligibility on Counts One and Two; three concurrent ten-year terms on Counts
Fifteen, Sixteen, and Seventeen; and a concurrent five-year term on Count Twenty-Seven. (Id. at
1.)
Hamilton appealed his conviction and sentence to the New Jersey Superior Court,

4

Case 3:16-cv-05705-PGS Document 37 Filed 09/17/19 Page 5 of 33 PagelD: 2365

Appellate Division. (ECF No. 34-4.) On June 29, 2010, in an unpublished, per curiam opinion,
the Appellate Division affirmed Hamilton’s conviction and sentence. (ECF No. 34-6.) Hamilton

,

filed a motion for reconsideration of the Appellate Division’s decision, which was denied on July
27,2010. (ECF No. 34-8.) Hamilton thereafter filed a petition for certification to the New Jersey
Supreme Court, which was denied on January 7,2011. (ECF No. 34-12.)
On February 18,2011, Hamilton filed his first petition for post-conviction relief (the “First
PCR”) in the Superior Court of New Jersey, Law Division. (ECF No. 34-13, at 80-88.) On
January 23, 2013, the Superior Court denied the First PCR, finding that certain claims were
procedurally barred under the New Jersey Court Rules and that the claims otherwise lacked merit.
(ECF No. 34-14, at 91-120.) On February 22, 2013, Hamilton appealed. {Id. at 122.)
While Hamilton’s appeal of the First PCR was pending, on December 30, 2013, Hamilton
filed a second petition for post-conviction relief (the “Second PCR”). (ECF No. 34-21, at 25.) On
January 30, 2014, the Second PCR was denied as procedurally barred by the Superior Court. {Id.
at 24.) Hamilton appealed that denial to the Appellate Division. (ECF No. 34-21, at 22-23.) While the appeal was pending, Hamilton filed a motion for a limited remand to the Second PCR
court for it to consider alleged newly discovered evidence, which was denied. (ECF Nos. 34-23,
25.)
On January 26,2016, in a consolidated opinion, the Appellate Division denied Hamilton’s
appeals of both his First and Second PCRs, affirming the Superior Court’s determination that the
claims raised in both petitions were procedurally barred under the New Jersey Court Rules. (ECF
No. 34-26.) On February 19, 2016, Hamilton filed a petition for certification of his First and
Second PCRs with the New Jersey Supreme Court. (ECF No. 34-27.) The New Jersey Supreme
Court denied certification on July 11,2016. (ECF No. 34-29.)

S’

Case 3:16-cv-05705-PGS Document 37 Filed 09/17/19 Page 6 of 33 PagelD: 2366

While the appeals of Hamilton’s First and Second PCRs were pending in the Appellate
Division, Hamilton filed a motion to correct an illegal sentence in the Superior Court of New
Jersey, Law Division, arguing that the State’s motion for an extended term sentence was timeed and should have "been denied. (ECFNo. 26-8, at 4-12.) On September 4,2014, Hamilton’s
barr
motion was denied. (ECF No. 26-9, at 2.) Hamilton thereafter moved for reconsideration of that
denial, (ML at 4), which was denied on March 31,2015, (ECF No. 26-10). Hamilton appealed that
decision, which was affirmed by the Appellate Division on September 1,2016. (ECF No. 34-33.)
The New Jersey Supreme Court denied certification on January 20,2017. (ECF No. 34-36.)
On or about September 19, 2016, Hamilton, acting pro se, filed a Petition for Writ of
Habeas Corpus pursuant to 28 U.S.C. § 2254. (ECF No. 1.) On October 20, 2016, Hamilton’s
habeas action was administratively terminated for failure to file an account certification in support
of his

application to proceed in forma pauperis. (ECFNo. 2.) Hamilton refiled his application to

proceed in forma pauperis, which was denied by this Court on March 1, 2017. (ECF No. 6.)
Following receipt of the filing fee fromHamilton, this Court reopened the matter on May 26, 2017.
(ECFNo. 9.)
In the Petition, Hamilton raises the following claims for relief:
Ground One: The trial court deprived Mr. Hamilton of his
Constitutional Right to Counsel of [his] Choice.
Ground Two: The trial court improperly instructed the jury
concerning the elements of possession of a firearm while
committing attain drug crimes, which constituted an amendment to
counts 15,16, and 17 of the indictment.
Ground Three: The trial court improperly charged the jury as to
count four, in violation of Petitioner’s rights to due process and a
fair trial in violation of U.S. Const. Amends. V, VI, XIV.
Ground Four: There is a Reasonable Probability That, but for Trial
and Appellate Counsel’s Deficient Performance in Five Critical
6

Case 3:16-cv-05705-PGS Document 37

Filed 09/17/19 Page 7 of 33 PagelD: 2367

Aspects, the Outcome Would Have been Different: (1) His failure
to make sure that the alleged alias name “Black” was redacted off of
thfe] recorded voice transcripts[;] (2) His failure to object to jury
instructions that Constructively Amended the indictment
concerning count’s (sic] 15,16, and 17[;] (3) His failure to object to
jury instructions feat Constructively Amended this indictment
concerning count four[;] (4) His failure to object permitted the Trial
to be Tainted by highly prejudicial other crimes evidence, as to
count 4[; and] (5) Sentencing, appellate and 1st PCR counsel s
failure to notice and challenge fee time barred extended term
motion.
(ECF No. 1, at 25-30.) While Hamilton acted pro se in filing fee Petition, he later retained counsel,
who filed a brief on his behalf on or about January 13, 2018. (ECF No. 25-1.) Counsel’s brief
only pertains to Ground One of fee Petition—feat Hamilton was denied his Sixth Amendment right
to choose his own counsel. {See id.) Respondents filed an Answer to fee Petition, in which they
argue

feat certain of Hamilton’s claims are procedurally defaulted and feat Hamilton has failed to

show fee denial of any federal constitutional right. (ECF No. 33.) Hamilton filed a pro se Reply
to the Answer. (ECF No. 35.)2
HI.

LEGAL STANDARD
Under the Antiterrorism and Effective Death Penalty Act of 1996 (“AEDPA”), 28 U.S.C.

§ 2254, “a

person

district court shall entertain an application for a writ of habeas corpus in behalf of a

in custody pursuant to fee judgment of a State court only on fee ground feat he is m custody

in violation of fee Constitution or laws or treaties of fee United States.” 28 U.S.C. § 2254(a).
“(Section] 2254 sets several limits on fee power of a federal court to grant an application
for a writ of habeas corpus on behalf of a state prisoner.” Cullen v. Pmholster, 563 U.S. 170

2

Petitioner has additionally filed a supplemental letter requesting feat this Court consider a

case presented by Petitioner discusses and applies only New Jersey law regarding fee right to
choose one’s own counsel, it is inapplicable to this federal habeas action.
7

Case 3:16-cv-05705-PGS Document 37 Filed 09/17/19 Page 8 of 33 PagelD: 2368

(2011); Glenn v. Wynder, 743 F.3d 402, 406 (3d Cir. 2014). Section 2254(a) permits a court to
entertain only claims alleging that a person is in state custody “in violation of the Constitution or
laws or treaties of the United States.” Id.
A federal court’s authority to grant habeas relief is further limited when a state court has
adjudicated petitioner’s federal claim on the merits. See 28 U3.C. § 2254(d). If a claim has been
adjudicated on the merits in state court proceedings, this Court “has no authority to issue the writ
of habeas corpus unless [the state court’s] decision ‘was contrary to, or involved an unreasonable
application of, clearly established Federal Law, as determined by the Supreme Court of the United
States,’ or was based on an unreasonable determination of the facts in light of the evidence
presented in the State court proceeding.’” Parker v. Matthews, 567 U.S. 37,40-41 (2012) (quoting
28 U.S.C. § 2254(d)). However, when “the state court has not reached the merits of a claim
thereafter presented to a federal habeas court, the deferential standards provided by the AEDPA .
. do not apply.” Lewis, 281 F.3d at 100 (quoting Appel v. Horn, 250 F.3d 203, 210 (3d Cir.
2001)).
When a claim has been adjudicated on the merits in state court proceedings, the writ shall
not issue unless the adjudication of the claim (1) resulted in a decision that was contrary to, or
involved an unreasonable application of, clearly established Federal law, as determined by the
Supreme Court of the United States; or (2) resulted in a decision that was based on an unreasonable
determination of the facts in light of the evidence presented in the state court proceeding. 28 U.S.C.
§ 2254(d); see also Parker v. Matthews, 132 S. Ct. 2148, 2151 (2012). A state-court decision
involves an “unreasonable application” of clearly established federal law if the state court (1)
identifies the correct governing legal rule from the Supreme Court’s cases but unreasonably applies
it to the facts of the particular case; or (2) unreasonably extends a legal principle from Supreme

8

Case 3:16-cv-05705-PGS Document 37 Filed 09/17/19 Page 9 of 33 PageJD: 2369

Court precedent to a new context where it should not apply or unreasonably refuses to extend that
principle to a new context where it should apply. Williams v. Taylor, 529 U.S. 362, 407 (2000).
Federal courts must follow a highly deferential standard when evaluating, and thus give the benefit
of the doubt to state court decisions. See Felkner v. Jackson, 131 S. Ct. 1305, 1307 (2011); Eley
v. Erickson, 712 F.3d 837,845 (3d Cir. 2013). A state court decision is based on an unreasonable
determination of the facts only if the state court's factual findings are objectively unreasonable in
light of the evidence presented in the state-court proceeding. Miller-El v. Cockrell, 537 U.S. 322,
340 (2003). Moreover, a federal court must accord a presumption of correctness to a state court's
factual findings, which a petitioner can rebut only by clear and convincing evidence. 28 U.S.C. §
2254(e); see Rice v. Collins, 546 U.S. 333, 339 (2006) (petitioner bears the burden of rebutting
presumption by clear and convincing evidence); Duncan v. Morton, 256 F.3d 189, 196 (3d Cir.
2001) (factual determinations of state trial and appellate courts are presumed to be correct).
IV.

DISCUSSION
a. Ground One - Denial of Right to Choose Counsel
Hamilton argues that he was denied his constitutional right to choose his own counsel under

the Sixth Amendment because the trial court denied his request to substitute his counsel and denied
an adjournment to permit him to seek new counsel shortly before trial.3

In the brief submitted by counsel, which was submitted nearly a year after Petitioner’s
habeas petitioner was filed, counsel additionally contends that appellate and PCR counsels were
ineffective in presenting this claim to the state court. Specifically, habeas counsel asserts that
appellate counsel was ineffective “for having failing to obtain and review all of the trial transcripts
although he was fully aware they existed,” (ECF No. 20-1, at 27); and PCR counsel was ineffective
for failing to raise, “ineffectiveness of appellate counsel for failing to submit those transcripts in
support of his choice of counsel argument on direct appeal,” {Id. at 28). Petitioner did not seek
leave to amend his Petition to bring these new claims and, therefore, the Court will not consider
these ineffective assistance of counsel claims. Accord Roland v. United States, "No. 14-4722,2018
WL 2134039, at *4 n.4 (D.N.J. May 9,2018).
9

' Case 3:16-cv-05705-PGS Document 37 Filed 09/17719 Page 10 of 33 PagelD: 2370

It appears that shortly after his arrest, Hamilton retained Maria Noto as his defense counsel.
(ECF No. 26-12, at 4-5.) At the time Hamilton retained Ms. Noto as counsel, she was a solo
practitioner. (See id.) However, in January 2006, Edward Washbume joined her firm as a partner
and began assisting with her caseload. (See ECF No. 34-38, at 3.) Ms. Noto thereafter was out of
the office for medical reasons. Upon her return to work, she shared some of her cases with Mr.
Washbume "because it was impossible at that point to catch up with everything that had to be
done.” (Id.) Hamilton’s case was among the files with which Mr. Washbume apparently assisted
Ms. Noto. (Id.) Mr. Washbume attended several court hearings on Hamilton’s case with Ms. Noto
and met with Hamilton to discuss his defense. (Id.)A
On the first day of jury selection, Hamilton alerted the trial court that he was dissatisfied
with his counsel, explaining:
I had discrepancies about my attorney for the longest. She handled
my case, didn’t investigate it properly, and just throw him on it three
months ago. I don’t have nothing against saying he’s not a good
lawyer, but she just throws him on it three months ago. I didn’t pay
him He wasn’t even in the firm when I paid her my money. It’s a
lot of things that wasn’t done. She’s not interested in my case. She
only been down here like four times out of two years. She only been
down here personally like four times. I couldn’t say anything
because I sat in the second row, and the only time I was spoken to
was when it was time for me to get another court date.... But I just
want proper representation. This is my life. These ain’t no small
charge that I have.
(ECF No. 34-37, at 3.) The trial court questioned Hamilton’s dissatisfaction with his legal
representation as “every motion that could have been filed was filed.” (Id.) Then, to the extent
Hamilton sought an adjournment of the pending trial date to obtain new counsel, the trial court

*
Included in these hearings was an August 30, 2006 status conference in which the trial
court indicated that Mr. Washbume would not be trying Petitioner’s case. (ECF No. 26-13, at 4
("Mr. Washbume, how long do you think your case will be? I know you won’t be trying it.. .
10

Case 3:16-cv-05705-PGS Document 37 Filed 09/17719 Page 11 of 33 PagelD. 2371

denied an adjournment because “it’s simply not practical, and there is no reason to adjourn the
case at this point.” (Id. at 4.)
Nevertheless, a week later, Ms. Noto appeared before the trial court to place on the record
the history of her representation of Hamilton. (ECF No. 34-38, at 2-3.) Ms. Noto stated that in
April 2006, Ms. Noto told Hamilton she “would like to have Mr. Washbume take over as his trial
counsel and asked if he would have an objection.” (Id. at 3.) According to Ms. Noto, Hamilton
did not object (Id.) After April 2006, Mr. Washbume handled all court appearances in this matter
and continued to meet with Hamilton in preparation for trial. (Id. at 3-4.) In response to Ms.
Noto’s explanation, Hamilton denied that he had not been informed that Mr. Washbume would be
talcing over his representation and thought that Mr. Washbume would only be “assisting” Ms.
Noto. (Id. at 4.)
The trial court denied Hamilton’s request to substitute his counsel because it was
“concemfed] that [he was] looking for a way to adjourn this trial.” (Id. at 6.) The trial court
explained
Ms. Noto is an officer of the Court. She has an obligation to advise
the Court honestly of what has transpired. I’m satisfied that you
were aware and agreed to Mr. Washbume taking over your
representation. If he were an attorney out of school a year or two,
that would be a difference situation, but he obviously has about the
same amount of experience as Ms. Noto has.

So I have no reason to believe that Mr. Hamilton will not have very
professional and aggressive representation, and I accept your
representations that Mr. Hamilton was made aware of this, and that
you will be available to, based on your prior involvement in the case
on motions to the extent that that’s relevant at all, to be able for
consultation with Mr. Washbume. He’s represented he is prepared
to go to trial, and he’s been involved in this case since April for a
period of five months, so we’re going to proceed with Mr.
Washbume representing Mr. Hamilton, and I have every reason to
11

Case 3:16-cv-05705-PGS Document 37 Filed 09/17719 Page 12 of 33 PagelD: 2372

believe* Mr. Hamilton, that you will receive very fine
representation.

m
Hamilton raised this claim on direct appeal, where it was denied by the Appellate Division.
The Appellate Division found that ‘‘the trial court struck the proper balance” in weighing its right
to control its calendar and Hamilton’s constitutional right to choose his own counsel. (ECF No.
34-6, at 8.) As such, the denial of Hamilton’s request for an adjournment was not an abuse of the
trial court’s discretion nor did it cause Hamilton “a manifest wrong or injury.” (Id.)
The Sixth Amendment of the Constitution guarantees criminal defendants the right “to
have the Assistance of Counsel for his defence.” U.S. Const amend. VI. The Supreme Court has
“recognized that die purpose of providing assistance of counsel ‘is simply to ensure that criminal
defendants receive a fair trial’ and that in evaluating Sixth Amendment claims, the appropriate
inquiry focuses on the adversarial process, not on the accused’s relationship with his lawyer as
such.” Wheat v. United States, 486 U.S. 153,159 (1988) (citation omitted) (first quoting Strickland
v. Washington, 466 U.S. 668, 689 (1984); then quoting United States v. Chronic, 466 U.S. 648,
657 n.21 <1984)). The Supreme Court has further explained that “while the right to select and be
represented by one’s preferred attorney is comprehended by the Sixth Amendment, the essential
aim of the Amendment is to guarantee an effective advocate for each criminal defendant rather
rhan to ensure that a defendant will inexorably be represented by the lawyer whom he prefers.” Id
However, the right to choose one’s counsel is not “derived from the Sixth Amendment’s purpose
of ensuring a fair trial” and has instead “been regarded as the root meaning of the constitutional
guarantee.” United States v. Gonzalez-Lopez, 548 U.S. 140, 147—48 (2006). Thus, an accused is
deprived of his right to choose his counsel where he “is erroneously prevented from being
represented by the lawyer he wants, regardless of the quality of the representation he received.”
12

Case 3:16-cv-05705-PGS Document 37 Filed 09/17/19 Page 13 of 33 PagelD. 2373

Id. at 148. Such an erroneous deprivation of the right to choose one’s counsel is a structural error.
Id at 150.
However, the right to choose one’s own counsel is not absolute and “is circumscribed in
several important respects,” including requiring that an accused’s chosen counsel is a member of
the bar, consents to the representation, and the accused can afford to pay his counsel. See Wheat,
486 U.S. at 159. Courts also have “wide latitude in balancing the right to counsel of choice against
the needs of fairness and against the demands of its calendar.” Gonzalez-Lopez, 548 U.S. at 152
(citation omitted). Indeed, “when a criminal defendant first makes a trial court aware of
dissatisfaction with counsel on the eve of trial, it may not be a denial of the right to counsel of
choice for the trial court to deny a continuance for the purposes of substituting or finding new
counsel.” Williams v. Hendricks, No. 00-4795, 2009 WL 2169230, at *4 (D.N.J. July 21, 2009);
see also Miller v. Blackletter, 525 F.3d 890, 894-98 (9th Cir. 2008) (denying habeas claim for
deprivation of a petitioner’s right to choose his own counsel where the petitioner waited until the
eve of trial to express dissatisfaction with his attorney); United States v. Lyles, 223 F. App x 499,
502-03 (7th Cir. 2007) (finding that district court did not abuse its discretion in denying a request
for a continuance to seek new counsel where the request was not made until the trial was scheduled
to begin). Nevertheless, “a trial court may not arbitrarily deny a defendant’s right to counsel of
choice” and “some sort of fact finding or hearing” is required. United States v. Voigt, 89 F.3d
1050,1055-56 (3d Cir. 1996); see also Fuller v. Diesslin, 868 F.2d 604, 609-12 (3d Cir. 1989).
The Appellate Division’s decision was neither contrary to this established federal precedent
nor an unreasonable application of that precedent. A hearing was held to determine the veracity
of Hamilton’s rlaim that he was unaware Mr. Washbume would act as his trial counsel. After
hearing the statements of Hamilton and Ms. Noto, the trial court found, on the record, that

13

. Case 3:16-cv-05705-PGS Document 37 Filed 09/17/19 Page 14 of 33 PagelD: 2374

Hamilton was aware that Mr. Washburne would represent him at trial as Ms. Note’s partner. Even
if this Court were to credit Hamilton’s claim that he believed Ms. Noto would represent him at
trial, he offers no reason why he delayed presenting this issue to the trial court until the first day
of trial. Under these circumstances, the trial court’s decision was neither unreasonable or arbitrary
where trial was set to begin and Mr. Washburne was prepared to proceed. Accord Miller, 525 F.3d
at 898 (concluding denial of Hamilton’s motion to substitute counsel was not “the type of
unreasoning and arbitrary insistence on expeditiousness that . .. federal law prohibits”). Based
on the Court’s review of the record, there is little support for Hamilton’s contention that the trial
court committed any constitutional error in proceeding to trial with Mr. Washburne as Hamilton’s
counsel. Accordingly, Hamilton is not entitled to relief on this claim.
b. Ground Two - Erroneous Jury Instruction on Counts Fifteen, Sixteen, and
Seventeen
In Ground Two, Hamilton contends that the trial court erred in instructing the jury
regarding the elements of possession of a firearm while committing certain controlled dangerous
substance (“CDS”) offenses in its charge to the jury on Counts Fifteen, Sixteen, and Seventeen of
the indictment Hamilton argues that the trial court specifically erred in instructing the jury that
for it to find Hamilton guilty of these offenses, it needed to find that “at the time alleged in the
Indictment that is, June 25th, 2004, the defendant was in the course of committing, attempting to
commit or conspiring to commit distribution of heroin or possession of heroin with the intent to
distribute.” (ECF No. 34-44, at 57—58 (emphasis added).) This was error, Hamilton contends,
because the predicate offense for Counts Fifteen, Sixteen, and Seventeen was possession of heroin
with the intent to distribute, not distribution of heroin. Hamilton asserts that the Court’s error
constituted a constructive amendment of the indictment because it “broadened the elements for
which the jury was to consider in order to convict Hamilton.” (ECF No. 4, at 28.)
14

Case 3:16-cv-05705-PGS Document 37 Filed 09/17/19 Page 15 of 33 PagelD. 2375

Counts Fifteen, Sixteen, and Seventeen of the indictment charged Hamilton with three
counts of possession of a weapon during the commission of a CDS-related offense. (ECF No. 342, at 26-28.) The CDS offense underlying these charges was set forth in Count Fourteen of the
indictment for possession of heroin with intent to distribute. (Id. at 25.) The offenses occurred in
East Orange, New Jersey on or about June 25,2004. (Id.) In instructing the jury on Counts Fifteen,
Sixteen, and Seventeen, the trial court stated, in relevant part:
Count 15 charges the defendant with possession of a weapon during
the commission of certain crimes....
For you to find the defendant guilty of this charge contained in
Count 15, the State must prove beyond a reasonable doubt the
following three elements:
1. That there was a firearm, S-37, in evidence, a Ruger
semi-automatic pistol, serial number 303-00503,
seized at 12 Hawthorne Place in East Orange;
2. That the defendant possessed the firearm;
3. That at the time alleged in the Indictment, that is,
June 25th, 2004, the defendant was in the course of
committing, attempting to commit, or conspiring to
commit distribution of heroin orpossession of heroin
with the intent to distribute.

Now, as to Counts 16 and 17, each charges the defendant with the
same offense, on the same date, at the same location. The only
difference, again, is the specific weapon the defendant is alleged to
have possessed. Therefore, my instructions regarding the elements
of this offense should be applied separately as to Counts 16 and 17
as well in their entirety.
As to Count 16, the elements the State must prove beyond a
reasonable doubt are:
1. That there was a weapon, S-38 in evidence, an Uzi
America semi-automatic pistol, serial number
97307267, seized at 12 Hawthorne Place in East
15

Case 3:16-cv-05705-PGS Document 37 Filed 09/17/19 Page 16 of 33 PagelO: 2376

Orange;
2. That this defendant possessed the firearm as I have
defined that term for you; and,
3. That at the time alleged in the Indictment, the
defendant was in the course of committing,
attempting to commit or conspiring to commit the
offense of distribution of heroin or possession of
heroin with the intent to distribute.
As to Count 17, the three elements are;
1. That there was a firearm, S-39 in evidence, a Beretta,
model 96, semi-automatic pistol, serial BER
036835M, likewise seized at 12 Hawthorne Place in
East Orange;
2. That defendant possessed the firearm;
3. That at the time alleged, the defendant was in the
course of committing, attempting to commit, or
conspiring to commit distribution of heroin, or
possession of heroin with the intent to distribute.
(ECFNo. 34-44, at 57-58 (emphasis added).)
Hamilton raised this claim on direct appeal. The Appellate Division agreed that the jury
instructions were incorrect but determined that the error was not “clearly capable of producing an
unjust result” because “there was no evidential basis for the jury to find defendant guilty based on
distribution.” (ECFNo. 34-6, at 10.) Moreover, the Appellate Division observed that
The State did not present any evidence to establish that defendant
was engaged in the distribution of heroin at 12 Hawthorne Place on
June 25, 2004, when the weapons were found there. Furthermore,
the court’s instruction on count fourteen made clear that the charge
pertained to the possession of CDS with intent to distribute, not the
distribution of CDS.
(Id. at 11-12 (emphasis in original).)
First, to the extent Hamilton brings a claim for improper amendment of the indictment at

16

Case 3:16-cv-05705-PGS Document 37 Filed 09/17/19 Page 17 of 33 PagelD: 2377

trial, it is not cognizable on habeas review. The Third Circuit has explained that “[a]n indictment
is constructively amended when evidence, arguments, or the [trial] court’s jury instructions
effectively ‘amend[s] the indictment by broadening the possible bases for conviction from that
which appeared in the indictment.”’ United States v. McKee, 506 F.3d 225, 229 (3d Cir. 2007)
(second alteration in original) (quoting United States v. Lee, 359 F.3d 194, 208 (3d Cir. 2004)).
However, because the Fifth Amendment’s guarantee of indictment by grand jury does not apply
to state prosecutions, “the legality of an amendment to an indictment is primarily a matter of state
law.” United States ex ret Wojtycha v. Hopkins, 517 F.2d 420, 425 (3d Cir. 1975); Johnson v.
Hines, 83 F. Supp. 3d 554, 560 (D. Del. 2015); see also Player v. Artus, No. 06-2764, 2007 WL
708793, at *7 (E.D.N.Y. Mar. 6,2007) (finding that habeas claim for constructive amendment of
a state indictment “does not present a federal constitutional question” (citing Lanfranco v. Murray,
313 F.3d 112,118 (2d Cir. 2002)). It is well-settled that “federal habeas corpus relief does not lie
for errors of state law.” Estelle v. McGuire, 502 U.S. 62,67 (1991). Thus, to the extent Hamilton’s
claim is for constructive amendment of the indictment, the claim fails. Accord Johnson, 83 F.
Supp. 3d at 560; Still v. Hastings, No. 13-6226, 2015 WL 3934937, at *6 (D.NJ. June 26, 2015)
(“Because the Fifth Amendment right to a grand jury indictment does not apply to state criminal
prosecutions, federal courts conducting habeas review are confined ‘to a determination of whether
due process requirements have been satisfied.’” (footnote omitted)).
Moreover, even if the Court were to construe Hamilton’s claim as one arising the due
process clause based on the trial court’s erroneous jury instructions on Counts Fifteen, Sixteen,
and Seventeen, it still lacks merit. Habeas review of jury instructions is limited to those instances
where the instructions violated a Hamilton’s due process rights. Echols v. Ricci, 492 F. App’x
301,312 (3d Cir. 2012) (citing Estelle v. McGuire, 502 U.S. 62,71-72 (1991) (holding that “[t]he

17

Case 3;16-cv-05705-PGS Document 37 Filed 09/17/19 Page 18 of 33 PagelD: 2378

only question for us is whether the ailing instruction by itself so infected the entire trial that the
resulting conviction violates due process.”)); see also Middleton v. McNeil, 541 U.S. 433, 437
(2004). A Hamilton’s due process rights are violated where the instruction “operated to lift the
burden of proof on an essential element of an offense as defined by state law.” Echols, 492 F.
App’x at 312 (quoting Smith v. Horn, 120 F.3d 400,416 (3d Cir. 1997)).
An error in the jury instructions is not ground for habeas relief if the error is harmless.
Pagliaccetd v. Kerestes, 581 F. App’x 134, 136 (3d Cir. 2014) (citing Yohn v. Love, 76 F.3d 508,
522 (3d Cir. 1996)). An error is harmless unless it “had substantial and injurious effect or influence
in determining the jury’s verdict.” Brecht v. Abrahamson, 507 U.S. 619, 637 (1993) (quoting
Koiteakos v. United States, 328 U.S. 750, 776 (1946)). The effeet of an allegedly erroneous jury
instruction “must be viewed in the context of the overall charge.” Cupp v. Naughten, 414 U.S.
141, 146-47 (1973). Thus, the relevant question “is not whether the trial court failed to isolate
and cure a particular ailing instruction, but rather whether the ailing instruction by itself so infected
the entire trial that the resulting conviction violates due process.” Id. at 147.
Hamilton argues that the misleading nature of the jury instructions is evident from the
jury’s apparent inconsistent verdict—it acquitted Hamilton of the predicate offense for the
compound weapons offenses. However, it has been well-settled by the Supreme Court that
“inconsistent verdicts are constitutionally tolerable.” Dowling v. United States, 493 U.S. 342,
353—54 (1990). This includes “verdicts that acquit on a predicate offense while convicting on the
compound offense.” United States v. Powell, 469 U.S. 57, 65 (1984). Indeed, the Supreme Court
has instructed that “[t]he most that can be said in such cases is that the verdict shows that either in
the acquittal or the conviction the jury did not speak their real conclusions, but that does not show
that they were not convinced of the defendant’s guilt.” Id. at 64—65 (quoting Dunn v. United

18

Case 3:16-cv-05705-PGS Document 37 Filed 09/17719 Page 19 of 33 PagelD: 2379

States, 284 U.S. 390, 393 (1932)). Accordingly, the Court cannot discern from die jury s
apparently inconsistent verdict that the error in the jury instructions actually misled the jury as
there are an

y number of reasons that the jury acquitted Hamilton of the predicate offense for Counts

Fifteen, Sixteen, and Seventeen.
The AppeHate Division’s determination that die errors in the trial court’s jury instructions
on Counts Fifteen, Sixteen, and Seventeen were not capable of producing an unjust result was
neither contrary to established federal precedent nor an unreasonable application of that precedent.
As die

Appellate Division observed, there was simply no evidence presented at trial that Hamilton

distributed heroin in East Orange on June 25,2004 at the time the weapons were seized, The trial
court’s instruction was clear that these charges related to the contraband seized at 12 Hawthorne
Place in East Orange.

Because the trial court’s instructions were clear as to the conduct to which

these compound offenses related, this Court cannot discern that the error in the jury instructions
was so

invasive to have rendered Hamilton’s trial unfair. Accordingly, relief on this claim is

denied.
c. Ground Three - Erroneous Jury Instruction on Count Four
In Ground Three of the Petition, Hamilton alleges that his due process rights were violated
as a

result of the trial court erroneously charging the jury on Count Four of the indictment and that

the trial court’s error constituted a constructive amendment of the indictment. Count Four of the
indictment charged as follows:
[Bjetween on or about June 24,2004, and on or about June 25,2004,
at the City of Trenton, in the County of Mercer, elsewhere, and
within the jurisdiction of this Court, knowingly or purposely did
distribute a controlled dangerous substance, that is, heroin, in a
quantity of five ounces or more including any adulterants or
dilutants.
' (ecf No. 34-2, at 15.) In the trial court’s jury instructions on this count, it stated that Count Four
19

* Case 3;16-cv-05705-PGS Document 37 Filed 09717/19 Page 20 of 33 PageJD; 2380

‘Involves the quantity of heroin that was seized by investigators at the 7-Eleven on Broad Street
in Trenton.” (ECF No. 34-44, at 39.) Hamilton contends, however, that no offense was committed
at a 7-Eleven in Trenton and argues that the trial court’s instructions combined two heroin
transactions that took place between June 24,2004 and June 25,2004. (ECF No. 1,28—29.) That
is because Hamilton maintains that the conduct underlying the offense occurred on Overbook
Avenue and Riverside Drive in Trenton, whereas the heroin referenced in the trial court’s
instructions was seized at a 7-Eleven in Hamilton, New Jersey. (Id.) This “combination” of the
two offenses, Hamilton argues, constituted a constructive amendment of the indictment because
the instructions made two offenses appear as one. (ECF No. 1, at 29.)
Hamilton first raised this claim in his First PCR Petition. (ECF No. 34-13, at 107-12.)
The Superior Court denied the claim as procedurally barred under New Jersey Court Rule 3:22-4
because Hamilton failed to raise the claim on direct appeal and additionally held, without
explanation, that the claim lacked merit. (ECF No. 34-14, at 101-05.) The Appellate Division
affirmed that decision. (ECF No. 34-26, at 8.) Respondents argue that this claim is procedurally
defaulted because the Appellate Division determined that it was procedurally barred under the
New Jersey Court Rules.
A habeas claim is procedurally defaulted where “a state court declined to address a
prisoner’s federal claims because the prisoner failed to meet a state procedural requirement.” Lark
v. Sec'y Pa. Dep’t ofCorrs., 645 F.3d 596, 611 (3d Cir. 2011) (quoting Coleman v. Thompson,
501 U.S. 722, 730 (1991)). Put differently, where the state court dismissed a Hamilton’s federal
claims pursuant to an “independent” and “adequate” state procedural ground, federal habeas
corpus review is not available. See id. If, however, the state law ground was not “independent”
and “adequate,” a federal court may review Hamilton’s claims on the merits. Id.

20

Case 3:16-cv-05705-PGS Document 37 Filed 09/17/19 Page 21 of 33 PageJD. 2381

“A state procedural rule is an inadequate ground to bar federal review if it was not firmly
established and regularly followed by the state courts at the time it was applied.” Id. The Third
Circuit has explained “that an adequate procedural ground is predicated on procedural rules that
speak in unmistakable terms.” Cabrera v. Barbo, 175 F.3d 307, 313 (3d Cir. 1999). Critically,
“the procedural disposition must comport with similar decisions in other cases so there is a firmly
established rule that is applied in a consistent and regular manner in the vast majority of the cases”
• and the rule must have been in place at the time of the state court procedural default. Id.
Procedural default may be excused where the Hamilton “can demonstrate cause for the
default and actual prejudice as a result of the alleged violation of federal law, or demonstrate that
failure to consider the claims will result in a fundamental miscarriage of justice.” Cnstin v.
Brennan, 281 F.3d 404,412 (3d Cir. 2002) (quoting Coleman, 501 U.S. at 750).
The PCR Court determined that Hamilton’s claim that the trial court erred in instructing
the jury on Count Four was procedurally barred under New Jersey Court Rule 3:22-4 because the
rlaim should have been raised on direct appeal. (ECF No. 34-14, at 103.) The Appellate Division
affirmwi that decision. (ECF No. 34-26, at 8-9.) New Jersey Court Rule 3:224 states that “(a]ny
ground for relief not raised in the proceedings resulting in the conviction, .. . , or in any appeal
taken in such proceedings is barred from assertion in a proceeding under this rule unless the court
finds that certain exceptions exist. NJ. Ct. R. 3:224(a). New Jersey Court Rule 3.224 is an
independent and adequate state law ground. See, e.g., Cabrera, 175 F.3d at 313; Egipciaco v.
Warren, No. 124718, 2015 WL 790108, at *34 (D.N.J. Feb. 25, 2015). Because this claim was
barred under an independent and adequate state law ground, it is procedurally defaulted and habeas
review is precluded unless Hamilton can demonstrate cause and prejudice for the default
Hamilton argues in his Reply that this Court should “look beyond his procedural default

21

Case 3:16-cv-05705-PGS Document 37 Filed 09/17/19 Page 22 of 33 PagelD. 2382

of this claim because “trial defense counsel was ineffective for failing to notice [and] object to the
faulty instructions that resulted in this amendment.” (ECF No. 35-1, at 15-16.) Furthermore,
Hamilton posits that “[a]n argument can also be made that had Hamilton had his chosen counsel.
representing him at trial, tins constructive amending of the indictment would have been caught
and objected to.” (Id. at 16.)
Cause that is sufficient to excuse a procedural default “will ‘ordinarily turn on whether the
prisoner can show that some objective factor external to the defense impeded counsel s efforts to
comply with the State’s procedural rule.” Cristin, 281 F.3d at 420 (quoting Murray v. Carrier,
471 U.S. 478,488 <1986)). “Cause” generally “cannot be based on the mere inadvertence of the
Hamilton or Hamilton's counsel to take an appeal.” Id.; see also Murray, 477 U.S. at 486 ( [T]he
mere fact that counsel failed to recognize the factual or legal basis or a claim, or failed to raise the
claim despite recognizing it, does not constitute cause for a procedural default ) Nevertheless,
ineffective assistance of counsel may constitute cause for procedural default, but only where the
attorney’s ineffectiveness rises to the level of a Sixth Amendment violation. Cristin, 281 F.3d at
420. Here, Hamilton has not demonstrated cause to excuse his procedural default of this claim.
Hamilton has not demonstrated that his counsel was ineffective for failing to raise this claim on
appeal and only points to the errors of trial counsel to support his argument that his default should
be excused. This is insufficient to overcome procedural default. See id.
Nevertheless, for the sake of completeness, the Court will also consider the merits of
Hamilton’s claim that the trial court’s instruction to the jury on Count Four violated his federal
due process rights. For a Hamilton to be entitled to habeas relief based on an erroneous jury
instruction, the ailing instruction must have “had substantial and injurious effect or influence in
determining the jury’s verdict.” Brecht, 507 U.S. at 637 (quoting Kotteakos, 328 U.S. at 776). To

22

Case 3:16-CV-05705-PG S Document 37 Filed 09/17719 Page 23 of 33 PagelD: 2383

'

determine whether an erroneous instruction violated the Hamilton’s right to due process, the ailing
instruction cannot be viewed in a vacuum and must be considered in the context of the entire
charge. Cupp, 414 U.S. at 146—47.
The trial court’s error in instructing the jury on Count Four did not violate Hamilton’s due
process right under the Fifth and Fourteenth Amendments. The alleged error in the jury instruction
on South Broad Street in
was the trial court’s statement that the offense occurred at a 7-Eleven
Trenton when, in fact, the two drug transactions on June 24 and 25,2004 occurred on Overbrook
Avenue and Riverside Drive in Trenton and at a 7-Eleven on Broad Street in Hamilton, New Jersey.
While Hamilton argues that Count Four of the indictment related only to the drug transaction that
occurred on Ovefbrook Avenue and Riverside Drive, it is clear from the trial record that the State
understood Count Four to be based on the Hamilton transaction. In summation, the State stated
that Count Four “deals with the delivery that was being made on the early morning of June 25th
by Cashwell and Shameeka Melvin to AkeemBlue at the 7-Eleven where they were finally arrested
on South Broad Street.” (ECF No. 34-44, at 20-21.) Moreover, the language of Count Four
encompasses the Hamilton transaction as Hamilton, New Jersey is located “in die County of
Mercer, elsewhere, and within the jurisdiction of this Court”
To die extent the jury instructions were erroneous in that they stated that the conduct
occurred at a 7-Eleven in Trenton, New Jersey, the error was harmless as it is clear from the trial
court’s instruction the conduct for which the charge referenced.

The trial court’s minor

misstatement of fact did not “so infectQ the entire trial that the resulting conviction violates due
process.” Estelle v. Mcguire, 502 U.S. at 72. The jury was instructed by the trial court that
“[rjegardless of what counsel said or I may have said recalling the evidence in this case, it is your
recollection of the evidence that should guide you as judges of the facts.” (ECF No. 34-44, at 30.)

23

' Case3:16-cv-05705-PGS Documents? Filed 09/17/19 Page 24of33PageJD: 2384

The jury is presumed to have followed that instruction. United States v. Givan, 320 F.3d 452,462
(3d Cir. 2003) (“{I]t is a basic tenet of our jurisprudence that a jury is presumed to have followed
dre instructions the court gave it.”). Hamilton has not shown he is entitled to habeas relief on this
claim and, accordingly, it is dismissed.
d. Ground Four — Ineffective Assistance of Counsel
In Ground Four, Hamilton asserts he was denied the effective assistance of counsel in
violation of the Sixth Amendment of the United States Constitution. The right to counsel set forth
in the Sixth Amendment is the right to the effective assistance of counsel and counsel can deprive
a defendant of the right by failing to render adequate legal assistance.

See Strickland v.

Washington, 466 U.S. 668, 686 (1984). A claim that counsel’s assistance was so defective as to
require reversal of a conviction has two components, both of which must be satisfied. Id. at 687.
First, the defendant must “show that counsel’s representation fell below an objective standard of
reasonableness.” Id. at 687-88. To meet this prong, a “convicted defendant making a claim of
ineffective assistance must identify the acts or omissions of counsel that are alleged not to have
been the result of reasonable professional judgment.” Id. at 690. The court must then determine
whether, in light of all the circumstances at the time, the identified errors fell “below an objective
standard of reasonableness.” Hinton v. Alabama, 134 S. Cl 1081,1083 (2014) (citation omitted).
To satisfy the prejudice prong, “a defendant need not show that counsel’s deficient conduct more
likely than not altered the outcome in the case.” Strickland, 466 U.S. at 693. To establish
prejudice, the defendant must show that “there is a reasonable probability that the result of the
{case] would have been different absent the deficient act or omission.” Hinton, 134 S. Ct. at 1083.5

Respondents argue that Petitioner’s claims for ineffective assistance of trial counsel that
were raised in his First PCR are procedurally defaulted because the PCR Court found them to be
barred by New Jersey Court Rule 3:22-4(a) because the claims could have been raised on direct
24

Case 3:16-cv-05705-PGS Document 37 Filed 09/17719 Page 25 of 33 PagelD: 2385

1. Failure to Ensure Hamilton’s Alias was Properly Redacted
Hamilton first argues that his counsel was

ineffective for failing to ensure that his alleged

-was redacted from transcripts that were admitted at trial. A significant part of the
alias, “Black,
d his codefendants was wiretaps of certain cell phones. (ECF No.
investigation into Hamilton an
34-40, at 11-12.) At trial,

transcripts of the audio captured by the wiretap was admitted by the

State. (Id. at 13.) Hamilton alleges that prior to trial, “the parties agreed to, and the Court also
ordered that the alleged alias name 'Black’ be redacted from the recorded voice transcripts. ” (ECF
No. 1, at 30.) However, some of the transcripts admitted at trial included references to someone
named “Black,

•' who Officer Kiely testified was Hamiltou. (Id. at 19.) Hamilton argues that his

trial counsel should have objected to the admission of these transcripts because they were not
properly redacted and were highly prejudicial to Hamilton. (Id.)
Despite determining

that this claim was barred by New Jersey Court Rule 3:22-4 for failure

to raise the issue on direct appeal.the PCR Court additionally addressed its merits . The PCR Court
held that Hamilton’s trial counsel was not

ineffective for not objecting to the inclusion of

Hanulton's alias. “Black,” appearing in the transcripts. (ECF No. 34-14, at 110.) Indeed, the PCR
Court noted that

“[tlrial counsel vigorously cross-examined Stale witnesses about the identification

anneal but were not While the trial court’s dismissal of Petitioner’s claims pursuant to New Jersey
<£. Rule 3:22-4 was, no doubt, an independent state law ground, it was not adequate. Mew

McQuaid, 688 A.2d 584, 594 (N.J. 1997) CTbis Court has also noted that the appropnateness of
asserting ineffective assistance of counsel claims on PCR because such claims ofte
reasonably be raised on direct appeal or in prior proceedings.”). Accordingly, die Court does
find Petitioner’s ineffective assistance of counsel claims to be procedurally defaulted and will
consider the merits of these claims.
25

Case 3:16-CV-05705-PG S Document37 Filed 09/17/19 Page 26 of 33 PagelD: 2386

of Hamilton as ‘Black’” and called a witness to testify that “Black” did not refer to Hamilton. (Id.
at 111.) Thus, ‘because trial counsel “adequately challenged the State’s witnesses about the
identification of Hamilton as ‘Black.’” (Id.)
The Court will not disturb this decision. Hamilton has not demonstrated either that his trial
counsel’s performance was deficient in failing to object to the admission of the nnxedacted
transcripts nor has he shown that he was prejudiced by their admission, Whether Hamilton used
the alias “Black” was a contested issue at trial on which Hamilton presented multiple witnesses
and cross-examined the State’s witnesses. Hamilton has similarly failed to demonstrate that he
was prejudiced by any alleged deficiency of counsel—he cannot demonstrate that had the
transcripts been redacted as apparently agreed there is a reasonable probability that the outcome
of trial would have differed. Hamilton is not entitled to habeas relief on this claim.
u. Failure to Object to Jury Instructions that Allegedly Constructively
Amended Counts Fifteen, Sixteen, and Seventeen
Hamilton next argues that his counsel was ineffective for failing to object to the jury
instructions on Counts Fifteen, Sixteen, and Seventeen. Hamilton raised this claim in his First
PCR and it was denied by the PCR Court? (See ECF No. 34-14, at 112-14.) In addition to finding

6
Respondents argue that this claim is unexhausted because it was not raised to the Appellate
Division or New Jersey Supreme Court. Before seeking relief in federal court, a state prisoner
must “exhaustQ the remedies available in the courts of the State.” 28 U.S.C. § 2254(b)(1)(A).
This “requirement is satisfied only if the petitioner can show that he fairly presented the federal
claim at each level of the established state-court system for review,” either on direct appeal or in
collateral post-conviction proceedings. Holloway v. Horn, 355 F.3d 707,714 (3d Cir. 2004). Once
a petitioner’s federal claims have been fairly presented to the state’s highest court, the exhaustion
requirement is satisfied. Picard v. Connor, 404 U.S. 270,275 (1971); see also Castille v. Peoples,
489 U.S. 346,350 (1989). While the Court finds that this claim is unexhausted because it was not
presented to the Appellate Division or New Jersey Supreme Court, it will nonetheless deny the
claim on the merits. See 28 U.S.C. § 2254(b)(2) (“An application for a writ of habeas corpus may
be denied on the merits, notwithstanding the failure of the applicant to exhaust the remedies
available in the courts of the State.”); Mahoney v. Bostel, 366 F. App’x 368,371 (3d Cir. 2010).
26

Case 3:16-cv-05705-PGS Oocument37 Filed 09/17/19 Page 27 of 33 PagelD: 2387

the

to be proeedurally barred as having been previously adjudicated on the merits by the

Appellate Division, who denied Hamilton’s underlying claim on direct appeal, the PCR Court
found that Hamilton’s trial counsel was not ineffective for failing to object to the jury instructions.
(Id.) The PCR Court determined that Hamilton’s claim failed under the second prong of
Strickland; he could not demonstrate that he was prejudiced by his counsel’s failure to object to
an error in the jury instructions that “did not produce an unjust result (Id. at 114.)
This Court will not disturb the decision of the PCR Court. As the Court held above,
Hamilton’s substantive claim related to the jury instructions on Counts Fifteen, Sixteen, and
Seventeen lacks merit For the same reasons, Hamilton cannot demonstrate that, even if counsel
was deficient for not objecting to the error in the jury instructions, he was prejudiced by that error.
Hamilton does not allege that the outcome of the trial would have differed in any way if his counsel
would have objected to the error in the jury instructions. Accordingly, relief on this claim is
denied.
Hi. Failure to Object to Constructive Amendment of Count Four
Hamilton asserts that his counsel was ineffective for failing to object to the trial court s
instruction on Count Four, which he argues constructively amended the indictment. As the Court
discussed in its analysis of Hamilton substantive claim on this issue, Hamilton alleges that the trial
court erroneously instructed the jury on this offense by stating that the offense occurred at a 7Eleven in Trenton, New Jersey. Hamilton maintains that that conduct underlying Count Four
occurred on Overbrook Avenue and Riverside Drive in Trenton. See supra at 19. In fact, Hamilton
argues that no illegal conduct occurred at a 7-Eleven in Trenton as his accomplices were arrested
at a 7-Eleven in Hamilton, New Jersey.
The PCR Court denied this claim because it found that the “jury instructions and verdict

27

Case 3:16-cv-057G5-PGS Document 37 Filed 09/17/19 Page 28 of 33 PagelD: 2388

sheet were not so misleading as to prejudice the Hamilton.” (ECF No. 34-13, at 107-08.) In
support of its finding, the PCR Court reviewed the evidence presented by the State in support of
fYinnt Four and observed dial “(tjfae distributions in Trenton and Hamilton took place close in time
and place, although they occurred on two different days. The jury did not ask the court to clarify
its instructions with regard to Count Four, specifically in what towns the defendants distributed
heroin and where they were apprehended and arrested.” (Id.) As such, the PCR Court held that
Hamilton could not meet the second prong of Strickland because there was no showing that
Hamilton “was prejudiced by trial counsel’s failure to object to the jury instructions or verdict
sheet in Count Four of the Indictment” (Id.)
The PCR Court’s decision was not unreasonable. Hamilton’s counsel was not deficient by
not objecting to the jury instructions on Count Four because it is clear from the indictment that the
Hamilton distribution fell under the conduct as set forth in the indictment Under New Jersey law,
a charge in an indictment “must sufficiently identify the criminal event to enable the accused to
defend and to defeat a subsequent prosecution for the same offense; hence the indictment must
allege all the essential facts of the crime.” State v. Lamb, 310 A.2d 102, 105-06 (NJ. Sup. Ct.
App. Div. 1973). Nevertheless,
ft]he proofs developed need not adhere strictly to the allegations of
the indictment If the proofs presented substantially adhere to that
outlined in the indictment and the indictment supplies sufficient
information to apprise defendant of the actual charge against him,
thus avoiding any possible prejudice, and protects him against a
subsequent prosecution for the same offense, the variance will be
deemed immaterial.
Id. at 106. Here, as the Court explained supra, the terms of Count Four of the Indictment
encompassed conduct that occurred in Hamilton, New Jersey, which is situated “in the County of
Mercer, elsewhere, and within the jurisdiction of this Court.” Hamilton’s counsel was not deficient

28

Case 3:16-cv-05705-PGS Document 37 Filed 09/17/19 Page 29 of 33 PagelD: 2389

in not objecting to the trial court’s instruction on Count Four because it was apparent from the
State’s proofs at trial that it sought to base its case on the conduct that occurred in Hamilton, New
Jersey between June 24, 2004 and June 25, 2005. No “fatal variance” of the indictment had
occurred and, thus, there was no reason for Hamilton’s counsel to raise any objection. Habeas
relief on this claim is denied.
iv. Failure to Object to the Admission of Other Crimes Evidence
Hamilton also argues that his counsel was ineffective because he failed to object to the
admission of other crimes evidence at trial. Specifically, Hamilton argues that his counsel should
have objected to toe admission of heroin (“Exhibit S-6”) that was seized when his accomplices
were arrested on June 25,2004 at a 7-11 in Hamilton, New Jersey. (ECF No. 1, at 31.) The PCR
Court denied this claim because it found that
Exhibit S-6 and other evidence of drug distribution in Hamilton
Township was part of toe Indictment. The language of the
Indictment states that toe Hamilton was indicted for toe distribution
of heroin on June 24 and June 25,2004, in Trenton, elsewhere, and
within toe jurisdiction of the Court. Although Hamilton Township
is not named specifically in toe indictment, toe indictment states that
he is also charged with distributing heroin “elsewhere, and within
toe jurisdiction of this Court[.]” Therefore, toe distribution which
took place in Hamilton Township is included in this Count of toe
Indictment
The court finds that trial counsel was not ineffective for failing to
object to S-6 being moved into evidence, as it was not evidence of
other crimes, rather it was intrinsic to Count Four of the Indictment.
(ECF No. 34-14, at 116 (alteration in original)).
The PCR Court’s holding was not unreasonable and will not be disturbed. As discussed
above, the Hamilton transaction was included in Count Four of the indictment The admission of
the heroin seized as part of that transaction and arrest was not other crimes evidence but evidence
of toe crime for which Hamilton was charged. Habeas relief on this claim is denied.
29

Case 3:16-cv-05705-PGS Document 37 Filed 09/17/19 Page 30 of 33 PagelD: 2390
v. Ineffective Assistance of Sentencing, Appellate, and PCR Counsels for
Failing to Challenge the State’s Motion for Extended Term Sentencing
as Time Barred
Finally, Hamilton alleges that his sentencing, appeUate and PCR counsels were all
as untimely.
ineffective in failing to object to the State’s motion for extended term sentencing
Hamilton argues
term sen

that the New Jersey court Rules required that the State’s motion for extended

tencing be filed within 14 days of the return of the verdict against Hamilton. (ECF No. 1,

at 32.) The State, however, did not file its motion until October 26, 2007, nearly a year after the
jury’s verdict was entered. (Id.) Because Hamilton’s sentencing counsel faded to object to the
motion on timeliness grounds, and because his appellate counsel did not raise this issue on appeal,
he contends they were ineffective in violation of the Sixth Amendment.
Hamilton raised this claim in his Second PCR. However, the PCR Court dismissed the
Second PCR as procedurally barred under New Jersey Court Rule 3:22-4(b)(2) as a second or
subsequent petition. The Appellate Division affirmed that decision. Respondents argue that these
claims are procedurally defaulted because the PCR Court and AppeUate Division held that they
were procedurally barred.
First, to the extent Hamilton claims that his PCR counsel was ineffective, his claim is not
cognizable in a habeas proceeding. S« 28 U.S.C. § 2254® ("The ineffectiveness or incompetence
£

of counsel during Federal or State collateral post-conviction proceedings shall not be a ground for
relief in a proceeding arising under section 2254.”).
Hamilton’s claims for ineffective assistance of counsel for his sentencing and appeUate
counsel’s faUure to chaUenge the timeliness of the State’s extended term motions are procedurally
defaulted. Under New Jersey Court Rule 3:22-4(b), a second or subsequent petition shaU be
dismissed unless it is timely under the Court Rules and it alleges on its face:

30

Case 3:16-cv-Q5705-PGS Document 37 Filed 09/17/19 Page 31 of 33 PagelD: 2391

(A)
That the petition relies on a new rule of constitutional law,
matte retroactive to defendant’s petition by the United States
Supreme Court or the Supreme Court of New Jersey, that was
unavailable during the pendency of any prior proceedings; or
(B)
That the factual predicate for the relief sought could not have
been discovered earlier through the exercise of reasonable diligence,
and the facts underlying the ground for relief, if proven and viewed
in light of the evidence as a whole, would raise a reasonable
probability that die relief sought would be granted; or
(C)
That the petition alleges a prima facie case of ineffective
assistance of counsel that represented the defendant on the first or
subsequent application for post-conviction relief.
As set forth supra, New Jersey Court Rule 3:22-1 is an independent and adequate state law
ground. See, e.g., Cabrera, 175 F3d at 313; Egipciaco, 2015 WL 790108, at *3-4. Because “the
last state court rendering a judgment in the case ‘clearly and expressly’ statefd] that its judgment
rest[ed] on a state procedural bar,” it is procedural default absent a showing of cause and prejudice.
See Harris v. Heed, 489 U.S. 255, 263 (1989) (quoting Caldwell v. Mississippi, 472 U.S. 320,327
(1985)). Hamilton did not address Respondent’s argument that this claim is procedurally defaulted
in his reply and, thus, he has not established either cause or prejudice.
Despite finding these claims to be procedurally defaulted, the Court will comment briefly
on their merits. New Jersey Court Rule 3:21-4(e) requires that the State file a motion for extended
term sentencing “within 14 days of the entry of defendant’s guilty plea or of the return of the
verdict.” The 14-day filing requirement may be extended “for good cause shown.” Id. While
there is no doubt that the State’s motion was untimely filed, Hamilton’s trial and appellate counsel
were not ineffective for failing to challenge the motion on timeliness grounds. Hamilton has failed
to show that he was prejudiced by the failure of his counsel to raise this argument Indeed, it is
apparent to the Court that had such a challenge been raised, it would have been denied. Under
similar circumstances, the Appellate Division has found good cause for filing an out-of-time
31

Case 3:16-cv-05705-PGS Document 37 Filed 09/17/19 Page 32 of 33 PagelD: 2392

motion for extended term sentencing where the defendant absconded the jurisdiction during the
pendency of trial. See State v. Lige, No. 03-03-383,2007 WL 4061656 (N.J. Super. CL App. Div.
Nov. 19, 2007) {“Here, there was good cause for extending die time for filing a motion for an
extended term because defendant chose to absent himself from trial and timely sentencing. ).
Moreover, on Hamilton’s motion to correct an illegal sentence, brought after his Second PCR, the
Superior Court held that the State had good cause for filing the untimely motion because
“Defendant absconded the jurisdiction of the court during his criminal trial, leaving the State
without the ability to serve a notice of an extended term upon him.” (ECF No. 34-30, 26-27.)
This Court agrees and because Hamilton cannot demonstrate that a challenge to the motion on
timeliness grounds would have succeeded, he cannot show he was prejudiced by any alleged
deficiency of counsel. Accordingly, this claim is denied.
V.

CERTIFICATE OF APPEALABILITY
Pursuant to 28 U.S.C. § 2253(c), unless a circuit justice or judge issues a certificate of

appealability, an appeal may not be taken from a final order in a proceeding under 28 U.S.C. §
2254. A certificate of appealability may issue “only if the applicant has made a substantial

showing of the denial of a constitutional right” 28 U.S.C. § 2253(c)(2). “A Hamilton satisfies
this standard by demonstrating that jurists of reason could disagree with foe district court’s
resolution of his constitutional claims or that jurists could conclude the issues presented are
adequate to deserve encouragement to proceed further.” Miller-El v. Cockrell, 537 U.S. 322, 327
(2003). Here, Hamilton has failed to make a substantial showing of the denial of a constitutional
right Thus, no certificate of appealability shall issue.
VI.

CONCLUSION
For the above reasons, foe Court will dismiss the Petition with prejudice. A certificate of

32

Case 3:16-cv-05705-PGS Document 37 Filed 09/17/19 Page 33 of 33 PagelD: 2393

appealability will not issue. An appropriate order follows.

PETER G. SHERIDAN
United States District Judge

33

'

r

v.

NOT FOR PUBLICATION WITHOUT THE
APPROVAL OF THE APPELLATE DIVISION
SUPERIOR COURT OF NEW JERSEY
APPELLATE DIVISION
DOCKET NO. A-3852-07T4

STATE OF NEW JERSEY,
Plaintiff-Respondent,
v.
CHARLES HAMILTON,
Defendant-Appellant.

Argued May 10, 2010 - Decided June 29, 2010
Before
Judges
Chambers.

Reisner,

and

Yannotti

On appeal from the Superior Court of New
County,
Mercer
Division,
Law
Jersey,
Indictment No. 05-03-0037-S.
Jason J. LeBoeuf argued the1 cause for
appellant (Caruso Pope Smith Edell Picini,
attorneys; Mr. LeBoeuf, of counsel and on
the brief).
Russell J. Curley, Deputy Attorney General,
argued the cause for respondent (Paula T.
Dow, Attorney General, attorney; Mr. Curley,
of counsel and on the brief).
PER CURIAM
Defendant Charles
found

guilty

of

first

Hamilton was tried before a
degree

distribution

of

a

jury,

and

controlled

dangerous substance (CDS), specifically heroin, in a quantity of
five

or

ounces

contrary

more,

2C:35-5(b)(1)

N.J.S.A.

and N.J.S.A.

2C:35-5(a)(1),

N.J.S.A.

to

as well as other

2C:2-6,

Defendant challenges his conviction and the sentences

offenses.

We affirm.

imposed.

I.

Defendant was

charged in

conspiracy to engage

05-03-0037-S with

2C:41-2(d)

N.J.S.A.

in racketeering,

first degree
and

N.J.S.A. 2C:5-2 (count one); first degree racketeering, N.J.S.A;,
(count

2C:41-2(c)
trafficking

two);

first

degree
2C:35-3

N.J.S.A.

network,

degree distribution of a CDS,

of

(count

2C:2-6

a

narcotics
first

three);

2C:35-5(a)(1),

N.J.S.A.

heroin,

2C:35-5(b)(1) and N.J.S.A.

N.J.S.A.

leader

(count four); third

degree distribution of a CDS, heroin, within 1000 feet of school
property,
second

degree

distribute,
N.J.S.A.

2C:35-7

N.J.S.A.

possession

N.J.S.A.

2C:2-6

and
of

CDS,

a

2C:35-5(a)(1),

(counts

2C:2-6

N.J.S.A.

eight

heroin,

N.J.S.A.

and

(count

with

six);

intent

2C:35-5(b)(2)

fourteen);

third

to
and

degree

possession of a CDS, heroin, with intent to distribute, N.J.S.A.
2C:35-5(a)(1), N. J.S.A. 2C:35-5 (b)(3) and N. J.S.A., 2C:2-6 (count
nine);

second

commission of
2C:35-5

and

degree

possession

of

certain crimes,

N.J.S.A.

2C:2-6

(counts

N.J.S.A.

2

a

weapon

during

2C:39-4.1(a),
ten,

eleven,

the

N.J.S.A.
twelve,

A—3852-07T4

thirteen,

sixteen

fifteen,

unlawful

purchase

N.J.S.A. 2C:2-6

of

fourth

seventeen);
N.J.S.A.

handgun,

degree

2C:39-10(a)

and

(counts twenty, twenty-one, twenty-two, twenty-

twenty-four

three,

a

and

and

twenty-five);

second

degree

money

laundering, N.J.S.A. 2C:21-25(a) (count twenty-seven); and first
degree

money

laundering,

N.J.S.A.

2C:21-25(b)

(count

twenty-

eight).
Defendant was tried before a jury, which found him guilty
of conspiracy to commit racketeering (count one),

racketeering

(count two), distribution of a CDS (count four), possession of a
weapon during the commission of certain crimes (counts fifteen,
sixteen

and

seven).

The

seventeen)
jury was

counts three,
fourteen.

eight,

and

money

laundering

(count

twenty-

unable to reach a unanimous verdict on
nine,

ten,

eleven,

twelve,

thirteen and

The court thereafter denied defendant’s motion for a

new trial.
The court granted the State's motion for imposition of an
extended

term

pursuant

to

N.J.S.A.

2C:43-6(f )

and

sentenced

defendant on count four to life imprisonment, with a twenty-five
year period of parole ineligibility.

The court merged count one

with count two, and sentenced defendant on count two to fifteen
years

of

incarceration,

ineligibility,

with

a

five-year

to run consecutively to the

3

period

of

parole

sentence on count

A—3852-07T4

four.

The

court

counts fifteen,
year

sentence

imposed

sixteen and seventeen;
on

count

ten-year

concurrent,

twenty

sentences

on

and a concurrent fiveThe

seven,

court

entered

a

judgment of conviction dated February 21, 2008, and this appeal
followed.
On appeal, defendant raises the following arguments for our
consideration:
POINT I
THE TRIAL COURT DEPRIVED MR. HAMILTON [OF]
BY
HIS CONSTITUTIONAL RIGHT TO COUNSEL
UNREASONABLY
DENYING HIM HIS
RIGHT
TO
COUNSEL OF HIS CHOICE
POINT II
THE TRIAL COURT IMPROPERLY INSTRUCTED THE
JURY CONCERNING THE ELEMENTS OF POSSESSION
OF A FIREARM WHILE COMMITTING CERTAIN DRUG
CRIMES
POINT III
THE TRIAL COURT ABUSED ITS DISCRETION IN THE
MANNER IN WHICH IT RESPONDED TO QUESTIONS
FROM THE JURY DURING ITS DELIBERATIONS
A. The trial court, in response to a request
for a readback of testimony, only provided
the jury with a readback of direct testimony
B. The trial court failed
question on the record

to

recite

C. The trial court
written charge

in

providing

erred

jury

a

POINT IV
THE TRIAL COURT ERRED
IN DENYING THE
DEFENDANT'S MOTION FOR JUDGMENT OF ACQUITTAL
WITH RESPECT TO COUNT
4
CHARGING MR.
HAMILTON WITH DISTRIBUTION

4

A-3852—07T4

POINT V
THE VERDICT ON COUNT 4 SHOULD BE REVERSED AS
THE JURY WAS CHARGED ON ACCOMPLICE LIABILITY
ONLY AND NOT CONSPIRACY LIABILITY
POINT VI
THE VERDICTS ON COUNT 1, COUNT 2 AND COUNT 4
WERE AGAINST THE WEIGHT OF THE EVIDENCE
POINT [VII]
CUMULATIVE ERRORS DENIED THE DEFENDANT THE
RIGHT TO A FAIR TRIAL
POINT [VIII]
THE TRIAL COURT ERRED BY IMPOSING UPON THE
DEFENDANT A SENTENCE FAR MORE SEVERE THAN
THAT IMPOSED ON ANY OF HIS CO-DEFENDANTS,
SPECIFICALLY WITH REGARD TO HIS SENTENCE ON
COUNT FOUR[]
POINT [IX]
THE TRIAL COURT ABUSED ITS DISCRETION IN
FAILING TO FIND AN APPLICABLE MITIGATING
FACTOR (NOT RAISED BELOW)
II.
Defendant
constitutional

first
right

that

argues
to

counsel

of

he

was

denied

his

his

own

choosing.

We

disagree.
Although an accused in a criminal case has a constitutional
right to counsel of his or her own choice, the right "'cannot be
insisted

upon

in

a

manner

that

will

obstruct

an

orderly

procedure in courts of justice and deprive such courts of me
exercise of their inherent powers to control the same.

t it

State

v. Furauson, 198 N.J. Super. 395, 401 (App. Div.) (quoting Smith

5

A-3852-07T4

v. United States, 288 Fed. 259, 261
denied,

1923)), certif

(D.C. Cir.

"A defendant desiring to exercise

101 N. J. 266 (1985).

the right to choose his own counsel must do so with reasonable
171 N.J. Super. 161,
diligence.” Ibid. (citing State v. McCombs,
165

(App.

1987),

Div.

81 N. J.

aff'd.

373

"[W]hen a

(1979)).

defendant fails to act expeditiously in obtaining counsel of his
'do what is
own choice, the trial court must have the power to
reasonably
State v.

necessary to meet the
117 N.J.

Yormark,

61 N.J.

modified in part,

Super.
202

situation.
315,

(1972),

340

i ii

Ibid,

(App.

(quoting

Div.

1971),

denied sub nom._,

cert.

34 L. Ed. 2d
Perwin v. New Jersey, 409 U.S. 862, 93 S. Ct. 151,
109

(1972)).

procedure

If

that

seeks

a defendant
may

generally

be

to change

counsel,
is

employed"

to

"[t]he

allow

"a

reasonable adjournment to permit the defendant to retain counsel
of his own choice." Furguson, supra,
However,

the

grant

or

denial

of

the

adjournment

"rests

" Ibid. "[T]he
within the sound discretion of the trial court[.]
exercise of that discretion will not constitute reversible error
in the absence of a showing of an abuse of discretion causing
defendant a manifest wrong or injury."

Ibid,

(citing State v.

1973); state v. Smith,
Lamb, 125 N.J. Super. 209, 213 (App. Div.
87 N.J. Super♦ 98, 105 (App. Div. 1965)).

6

A-3852-07T4

We are satisfied that the trial court did not abuse its
discretion by denying defendant's request for an adjournment so
that he could retain new counsel. The record shows that Maria
Noto had represented defendant since shortly after his arrest in
June 2004.

Lawrence Washburne later joined Ms. Noto's firm. Ms.

Noto was out of the office from January until April 2006 for
medical reasons

and Mr.

Washburne appeared with defendant in

court two or three times.
Defendant

was

aware

as

early

as

April

2006

that

Mr.

Washburne would be representing him at the trial in this matter.
It appears that Ms. Noto was scheduled to begin another trial on
the

trial

date

in

this

Ms.

case.

Noto

and

Mr.

Washburne

represented to the court that defendant had agreed to have Mr.
Washburne act as his counsel.
In addition, defendant did not inform the court that he did
not want either Ms. Noto or Mr. Washburne to represent him until
the eve of trial.

The court noted that the trial date had been

set for "many, many months" and it appeared that defendant was
merely "looking for a way to adjourn this trial."
The court also noted that Mr. Washburne had considerable
experience "on both the defense side and the prosecutor's side"
and would provide defendant

"very fine

representation."

The

record further shows that if the matter had been adjourned so

7

A-3852-07T4

V.

the trial would have

that defendant could retain new counsel,

been delayed for a considerable period of time. As we stated in
Furcruson,
for
an
applies
a
defendant
[w]hen
substitute
adjournment to enable him to
counsel, the trial court must strike a
balance between its inherent and necessary
right to control its own calendar and the
in
the
orderly
interest
public's
on
the
one
hand,
administration of justice,
and the defendant’s constitutional right to
obtain counsel of his own choice, on the
other.
Furauson, supra. 198 N.J. Super, at 402.]
We are satisfied that, in this case, the trial court struck
the proper balance.

We are also satisfied that the denial of

defendant's adjournment request did not cause him "a manifest
wrong or injury." Ibid,

(citing Lamb, supra, 125 N.J. Super. at

213; Smith, supra, 87 N.J. Super, at 105).
III.
Next,

defendant

argues

that

the

trial

court

failed

to

correctly instruct the jury on the charges in counts fifteen,
sixteen and seventeen.
In those counts,

defendant was

charged with the knowing

possession of certain weapons while in the course of committing
a

drug

offenses

offense

in

referred

violation
to

in

of

these

N.J.S.A.
counts

2C:35-5.
were

the

The

drug

unlawful

possession of CDS with intent to distribute, as charged in count

8

A-3852-07T4

fourteen.

It

is

undisputed that

count

fourteen

pertained

to

drugs seized at 12 Hawthorne Place in East Orange on June 25,
2004.
The trial court provided the following instruction to the
jury regarding count fifteen:
For you to find the defendant guilty of this
charge contained in count [fifteen], the
State must prove beyond a reasonable doubt
the following three elements:
1. That there was a firearm, S-37 in
evidence, a Ruger semi-automatic pistol, . .
. [that was] seized at 12 Hawthorne Place in
East Orange;
2. That
firearm; and,

the

defendant

possessed

the

3. That at the time alleged in the
[i]ndictment, that is, June 25th, 2004, the
defendant was in the course of committing,
attempting to commit,
or conspiring to
commit distribution of heroin or possession
of heroin with the intent to distribute.
In

discussing

the

third

of

the

three

aforementioned

elements, the court stated that the drug offense involved was
"distribution

or

possession

of

heroin

with

the

intent

to

distribute." The court provided essentially the same charge with
regard to counts sixteen and seventeen.
Defendant contends that the charges

on the

three counts

were erroneous because the court instructed the jury that,

in

order to find defendant guilty on these three counts, it had to

9

A-3852-07T4

find that he possessed the weapons while in the course of either
the unlawful possession of heroin with intent to distribute or
distribution

of

instructions.

We

Defendant

heroin.
therefore

consider

did

not

this

to

the

under

the

object

argument

plain error standard. R- 2:10-2.
erroneous but
We are convinced that the instructions were
the errors were

"clearly capable of producing

not

an unjust

result." Ri_ 2:10-2. The charges in counts fifteen, sixteen and
seventeen pertained to weapons seized at 12 Hawthorne Place in
East

Orange

on

25,

June

2004.

Defendant

charged

was

with

possessing those weapons while in the course of committing the
offense charged in count fourteen.
Count

fourteen

involved

the

possession

of

heroin

with

intent to distribute, not the distribution of heroin. Although
the trial court erred by stating defendant could be found guilty
on counts

fifteen,

sixteen and seventeen if he possessed the

weapons while engaged in the commission of either the possession
of

heroin with

heroin,

intent

there was

no

to

distribute

evidential basis

or

the

for

distribution

the

jury

to

of

find

defendant guilty based on distribution.
Indeed, the State did not present any evidence to establish
that defendant was engaged in the distribution of heroin at 12
Hawthorne Place on June 25,

2004, when the weapons were found

10

A—3852-07T4

Furthermore,

there.

the court's - instruction on count fourteen

made clear that the charge pertained to the possession of CDS
with intent to distribute, not the distribution of CDS.
instructions
We are therefore satisfied that the erroneous
on

counts

sixteen

fifteen,

and

seventeen

not

were

capable of producing an unjust result. R- 2:10-2.

clearly

The errors in

the instructions do not rise to the level of plain error.
IV.
Defendant additionally

argues

that

the

verdict on count

four was against the weight of the evidence and the court should
have granted his motion for a new trial on that basis.
A trial

judge may not

set aside

a

verdict

jury’s

in a

criminal case on the ground that the verdict was against the
weight of the evidence "unless, having given due regard to the
opportunity of the

jury to pass upon the credibility of the

witnesses, it clearly and convincingly appears that there was a
denial

manifest

of

justice

the

under

law."

R.

3:20-1.

Furthermore, "[t]he trial court's ruling on such a motion shall
not be

reversed unless

it clearly

appears

miscarriage of justice under the law.

that

there was

a

ILi. 2:10-1.

In count four, the State charged that, on or about June 25,
2004,

in

Shameekah

Trenton,
Melvin

defendant,
(Melvin)

Robert

knowingly

11

Cashwell
or

(Cashwell)

purposely

and

distributed

A-3852-07T4

in

heroin,

a

quantity

contrary

more,

N.J.S.A.

and

2C:35-5(b)(1)

to

The court instructed the jury that defendant could be

2C:2-6.

found guilty on this count if
the

or

ounces

N.J.S.A.

2C:35-5(a)(l),

N.J.S.A.

five

of

offense

and

Cashwell and/or Melvin committed

"acted

defendant

as

accomplice

an

with

the

purpose that the [offense] be committed."
Defendant

that

argues

the

failed

State

to

present

Melvin were
sufficient evidence to establish that Cashwell or
or about
involved in the distribution of heroin in Trenton on
June 25, 2004.

We disagree.

At the trial, the State presented evidence that it learned
that Larry Willis (Willis) was
from a confidential informant
obtained authorization
distributing heroin in Trenton. The State
to

place

wiretap

a

phone.

on Willis'

The

intercepted

calls
The

indicated that Cashwell was supplying Willis with her-oin.
State

obtained

then

Cashwell's

authorization

to

intercepted

phone

The

phone.

place

a

calls

wiretap

revealed

on
that

defendant supplied Cashwell with heroin.
the

Furthermore,

presented

State

that

evidence

intercepted telephone calls on the evening of June
which

indicated

heroin
deliver

from

that Cashwell

defendant,

heroin

to

the

and

was

arranging

Cashwell

Trenton

12

area

and
for

the

Melvin

24,

it
2004,

purchase

of

planned

to

distribution

there.

A-3852-07T4

Cashwell called defendant at 10:21 p.m. and they agreed to meet
at defendant's apartment building at 413 Dodd Street in East
Orange.

Cashwell

met

Melvin

and

they

proceeded

to

413

Dodd

Street. A green Hummer, which defendant was known to drive, was
seen

at that

location.

Cashwell was

observed

entering the

building.
At around 11:22 p.m., Cashwell left the building carrying a
black bag, which he did not have when he entered the building.
Thereafter,

Cashwell

and Melvin drove

to Trenton,

They sold

heroin to Willis. Cashwell and Melvin then met Akeem Blue (Blue)
in the parking
Jersey,

lot

of

a convenience

for the purpose of

store

in Hamilton,

selling heroin to him.

New

Cashwell,

Melvin and Blue were arrested, The police found 179 bricks1 of
heroin and $4670

in cash in Cashwell s car.

The police also

found a shoe box containing $46,718 in Blue’s car.
Defendant contends that the evidence failed to establish
that Cashwell distributed heroin to Blue because Cashwell and
Blue were arrested before the transaction was completed. We are
satisfied, however, that the State presented sufficient evidence
from which the

jury could reasonably

find that Cashwell had

distributed heroin to Blue.

1 A brick consists of fifty bags of heroin.

A-3852-07T4

no evidence
Defendant additionally argues that there was
that he was involved in the distribution of heroin to Willis or
2004. He asserts that he was "no where near

Blue on June 25,

However, based on

Trenton " when the drug transactions occurred.

a reasonable jury could find

the evidence presented at trial,
guilty

defendant

distributing

of

Cashwell's

as

heroin

accomplice.
Defendant further argues that the trial court erred in its
charge

the

to

jury

on

count

four.

Defendant

instead of charging him as an accomplice,

contends

that

he should have been

charged with conspiracy because there was no evidence that he
involved in the distribution of the
was directly or indirectly
We
drugs on June 25, 2004. We find no merit in this argument.
sufficient evidence of defendant’s
are satisfied that there was
involvement with
heroin

on

Cashwell
25,

June

and Melvin
to

2004,

in

the

his

warrant

distribution of

conviction

as

an

accomplice.
V.
Defendant

raises

the

following

additional

arguments

regarding his convictions: the verdicts on counts one and two
were against the weight of the evidence; the court erred when it
responded
because

to
it

the
only

jury's
provided

questions
the

14

jury

during
with

its

deliberations

read-backs

of

the

A-3852-07T4

V-.

testimony of certain witnesses and should have provided the jury
the court erred
with the cross examination of these witnesses;
after
by providing the jury with a copy of its written charge,
the jury asked the court to repeat its definition of the word
"constructive;" and the court erred by failing to read into the
record

one

the

of

We

deliberations.
without

questions

raised

convinced

are

sufficient merit

by

that

the

during

its

contentions

are

jury

these

discussion

to warrant

in

a written

opinion. R.. 2:ll-3(e) (2).
VI.
additionally

Defendant

that

argues

his

sentences

are

manifestly excessive and should be reduced.
the

Here,

trial

court

granted

the

State's

motion

for

2C:43-6(f).
imposition of an extended term pursuant to N.J.S.A.
The

court

found

the

following

aggravating

factors:

N.J.S.A.

2C:44-l(a)(3) (risk that defendant will commit another offense);
n.J.S.A.

2C:44-1(a)(6)

(extent

of

defendant's

prior

criminal

record and the seriousness of the offenses of which he has been
convicted); and N.J.S.A
and

others

from

2C:44-1(a)(9)

violating

the

(need to deter defendant

law).

The

court

found

no

mitigating factors, The court sentenced defendant to an extended
term of life imprisonment,

with a twenty-five year period of

parole ineligibility on count four, and a consecutive extended

15

A-3852—07T4

V.

term of fifteen years on count two, with a five-year period of
parole ineligibility.
Defendant argues that the court erred by failing to find
mitigating factor eleven, N.J.S.A. 2C:44-l(b)(11)

(imprisonment

of defendant would entail excessive hardship to himself or his
dependents). Defendant has five children with different mothers.
He asserts that his imprisonment would be an "obvious" hardship
to them.

defendant

However,

did

not

present

any

evidence

showing that he was supporting the children or had a nurturing
relationship with them. Defendant therefore failed to establish
that his incarceration would result in "excessive hardship" to
his children. N.J.S.A. 2C:44-l(b)(11).
Defendant

also

argues

that

there

is

an

impermissible

disparity between his sentence and the sentence imposed upon codefendant Cashwell.

The trial court found that defendant and

Cashwell were not similarly situated in terms of the offenses of
which

they

were

convicted.

The

record

supports

the

court's

finding. Cashwell pled guilty to one offense, specifically first
degree possession of

heroin with intent to distribute within

1000 feet of school property, and he was sentenced to ten years
of incarceration with a forty-two month parole disqualifier.
Moreover,

the

trial

court

noted

on

the

judgment

of

conviction that, in sentencing defendant, it had considered the

16

A—3852-07T4

sentences imposed on Cashwell and the other co-defendants but
found that defendant had a superior role in the distribution of
heroin and his conduct was distinguishable from that of the co­
defendant’s

"in terms of volume,

profit,

supervisory role,

as

Again, the

well as on the basis of his prior criminal history."
record supports the court’s finding.

We are therefore satisfied that defendant's sentences are
not manifestly excessive or unduly punitive, do not represent an
abuse of the judge's sentencing discretion, and do not shock the
judicial conscience.

State v.

O'Donnell.

117 N. J.

210,

215-16

(1989); State v. Roth. 95 N.J. 334, 363-65 (1984).
Affirmed.

I hereby certify that the foregoing
is a true copy of the original on.
filem my office.
CLERK OF THE,

17

\TE DIVISION

A-3852-07T4

\
4.

I NOOO

\

AGREEMENT TO PROVIDE LEGAL SERVICES

This agreement dated December 2 , 2004, is made between the Client, CHARLES
HAMILTON,

whose

address

is

73

Oak

Avenue,

Irvington, New

Jersey

07111,

referred to as "You", and LAW OFFICE OF MARIA DELGAIZO NOTO, whose address is 746
Highway 34, Matawan NJ, 07747, referred to as the "Law Firm".
You agree that the Law Firm will represent CHARLES HAMILTON in connection
with the following charges, which were filed against you by The State of New Jersey:
Mercer County Mercer County Union County Essex County-

State v. Charles Hamilton — Criminal. Case
Forfeiture Case
State v. Charles Hamilton
Violation of Probation

LEGAL SERVICES: It is difficult to predict the exact nature, extent and difficulty
of the contemplated services and the total amount of attorney time involved. However, the services
which the Law Firm will provide will continue until this matter reaches a disposition. The fee does
not include any post-judgment services (i.e. Appeals, Motion for New Trial, etc.).
PAYMENT: The Law Firm will begin on your case upon receipt of at least
$10,000.00. The sum of $ 10^)00.00 is hereby acknowledgecL
:
PAYMENT: The total.fee ^r^pm^fetion is:
1. Mercer County Criminal Case - $50,000.00, includes 20 trial days - each
additional day $1,500.
2. Mercer County - Forfeiture Defense Case - $ 10,000
3. Union County Case - $10,000
4. Essex County - Violation of Probation - $2,5 00
Payments will be paid by CHARLES HAMILTON at the rate of $5,000 a month.
COSTS AND EXPENSES: In addition, you must pay the following costs and
expenses: (if applicable) court costs, filing fees, service fees, expert fees, subpoena costs,
investigation fees and other necessary expenses related to the defense of thus matter.
NO GUARANTEE: In representing you in this matter, the Law Firm cannot
determine or predict the final outcome. The Law Firm agrees to provide you with conscientious,
diligent and competent legal service and at all times seek to achieve and end consistent with your
interest.

%

SIGNATURES:
You and the Law Finn have read and agree to this agreement.
The Law Firm has answered all of your questions and folly explained this agreement to your
• complete/satisfactinn.

m

d&nt Charles Hamilton—^
Dated: December^ , 2004

^^MARIA DELGAlZO NOTO, ESQ.
Dated: December 2-j 2004

